<html>
<title> - THE UNITED STATES SECRET SERVICE AND PRESIDENTIAL PROTECTION: AN EXAMINATION OF A SYSTEM FAILURE PART I and II</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
   THE UNITED STATES SECRET SERVICE AND PRESIDENTIAL PROTECTION: AN 
                    EXAMINATION OF A SYSTEM FAILURE
                             PART I and II

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                 DECEMBER 3, 2009 and JANUARY 20, 2010

                               __________

                           Serial No. 111-46

                               __________

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
55-808 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
William L. Owens, New York
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement, December 3, 2009...............................     1
  Oral Statement, January 20, 2010...............................    61
  Prepared Statement, December 3, 2009...........................     2
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement, December 3, 2009...............................     2
  Oral Statement, January 20, 2010...............................    62
The Honorable Ann Kirkpatrick, a Representative in Congress From 
  the State of Arizona:
  Prepared Statement, January 20, 2010...........................    64

                               Witnesses

Mr. Mark J. Sullivan, Director, United States Secret Service, 
  Department of Homeland Security:
  Oral Statement, December 3, 2009...............................     5
Mrs. Michaele and Mr. Tareq Salahi, Private Citizens:
  Oral Statement, January 20, 2010...............................    64
  Prepared Statement, January 20, 2010...........................    65

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  E-mails........................................................    25
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security:
  Memo From Jim Messina, December 2, 2009........................    46
  E-mails........................................................    47
  Letter From Chairman Bennie G. Thompson to Ms. Desiree Rogers..    59


   THE UNITED STATES SECRET SERVICE AND PRESIDENTIAL PROTECTION: AN 
                    EXAMINATION OF A SYSTEM FAILURE
                                 PART I

                              ----------                              


                       Thursday, December 3, 2009

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:04 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Sanchez, Harman, Norton, 
Jackson Lee, Cuellar, Carney, Clarke, Richardson, Kirkpatrick, 
Lujan, Pascrell, Cleaver, Green, Himes, Kilroy, Massa, Titus, 
King, Souder, Lungren, Rogers, McCaul, Dent, Bilirakis, Broun, 
Miller, Olson, and Austria.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony on, 
``The United States Secret Service and Presidential Protection: 
An Examination of a System's Failure.''
    Good morning. I want to thank the witnesses for agreeing to 
testify here today.
    Some people have asked me why we are having this hearing. 
Let me be clear, this hearing is not about crashing a party at 
the White House. Neither is it about wanna-be celebrities or 
reality television.
    On the contrary, this hearing is about real-world threats 
to the Nation. We cannot forget that amidst all of the 
hullabaloo and uproar, the most important and indisputable fact 
is that a couple gained unauthorized access to the White House 
grounds because no one from the Secret Service prevented them 
from entering. They remained at the White House because no one 
from the Secret Service required them to leave.
    We are not concerned about agency embarrassment. Discomfort 
or shame cannot serve as a substitute for performance. The 
security gaps at issue cannot be explained away as missteps by 
a few frontline employees. There were undeniable planning and 
execution failures of the entire Secret Service apparatus. With 
security failings that seem to hang over that evening like a 
fog, we are all fortunate that this diplomatic celebration did 
not become a night of horror.
    There is no doubt that this incident can be an enlightening 
case study, but it is not enough for us to merely analyze. We 
must dissect every fact. We must learn the lesson and fix the 
problem, and after we do these things, we need to give thanks 
that no lives were lost.
    Today we take a hard look at Secret Service actions and 
omissions that have been revealed and confirmed by this 
incident. This Nation's response to the terrorism threat at 
home and abroad demands that we maintain vigilance. The fact 
that unauthorized persons gained access to the White House 
complex during an official State Dinner, mixed and mingled and 
were photographed with the President, Vice President, and the 
Prime Minister of India is about as far from vigilant as one 
can get. It is simply unacceptable. The American people deserve 
a full accounting and full accountability. We must be assured 
that this will never happen again.
    I look forward to the testimony presented today, and I look 
forward to the actions that should follow.
    [The statement of Chairman Thompson follows:]
           Prepared Statement of Chairman Bennie G. Thompson
    Some people have asked me why we are having this hearing. Let me be 
clear. This hearing is not about crashing a party at the White House. 
Neither is it about ``wanna-be'' celebrities or reality television.
    On the contrary, this hearing is about real world threats to the 
Nation.
    We cannot forget that amidst all the hullabaloo and uproar, the 
most important and indisputable fact is that a couple gained 
unauthorized access to the White House grounds because no one from the 
Secret Service prevented them from entering.
    They remained at the White House because no one from the Secret 
Service required them to leave.
    We are not concerned about agency embarrassment. Discomfort or 
shame cannot serve as a substitute for performance. The security gaps 
at issue cannot be explained away as small missteps by a few front-line 
employees.
    There were undeniable planning and execution failures of the entire 
Secret Service apparatus.
    With security failings that seemed to hang over that evening like a 
fog, we are all fortunate that this diplomatic celebration did not 
become a night of horror.
    There is no doubt that this incident can be an enlightening case 
study. But it is not enough for us to merely analyze. We must dissect 
every facet. We must learn the lessons and fix the problems. And after 
we do these things, we need to give thanks that no lives were lost.
    Today, we take a hard look at Secret Service actions and omissions 
that have been revealed and confirmed by this incident. This Nation's 
response to the terrorism threat at home and abroad, demands that we 
maintain vigilance.
    The fact that unauthorized persons gained access to the White House 
Complex during an official State Dinner, mixed and mingled, and were 
photographed with the President, Vice President and the Prime Minister 
of India is about as far from vigilant as one can get. It is simply 
unacceptable.
    The American people deserve a full accounting and full 
accountability. And we all must be assured that this will never happen 
again.

    Chairman Thompson. The Chair now recognizes the Ranking 
Member of the full committee, the gentleman from New York, Mr. 
King for an opening statement.
    Mr. King. Thank you, Mr. Chairman. Let me at the outset 
thank you and your staff for the level of cooperation you have 
shown throughout this matter as far as scheduling the hearing, 
as far as keeping us apprised on what has been happening, and 
also as far as agreeing with my request that Desiree Rogers be 
called as a witness before this committee.
    I agree with you completely, Mr. Chairman, that we cannot 
have discomfort or shame be a reason for someone not to testify 
or own up to responsibility.
    It is also important, as you said, that we dissect every 
fact.
    Let me just say, the Secret Service, I believe, does an 
outstanding job. Obviously, mistakes were made here. I commend 
Director Sullivan for immediately acknowledging that and for 
also conducting an internal investigation and for the level of 
cooperation he has given to me and I realize to you as well 
over the last several days of putting everything on the table 
and holding nothing back. So I commend him for that, and 
whatever decisions he is to make within the Secret Service, I 
am sure that he will do the right thing.
    Mr. Chairman, the reality is that at social events at the 
White House, security is a shared responsibility between the 
Secret Service and the Office of the Social Secretary. We have 
gone back through two administrations, and we cannot find any 
instance of any significant event to the White House where the 
Social Secretary's Office was not there standing with the 
Secret Service. There are reasons for this.
    One is, in the event that someone is supposed to be on the 
list and is not, the Social Secretary's Office can resolve 
that; they can work to resolve it while the Secret Service 
continues to process other people in line.
    In this instance, for whatever reason, the decision was 
made not to have one person from the Social Secretary's Office 
standing with the Secret Service that night, not one. So this 
reverses policies of at least two administrations.
    Now, the reason I asked for Desiree Rogers to come here was 
not in any way to make this a vendetta, not to go after her at 
all; for the same reason that we asked Director Sullivan to 
testify here, because if we want to get a complete picture, we 
have to learn from the Secret Service what they do, what they 
didn't do, what the Social Secretary's Office did and what they 
didn't do and why they were not there that night. This to me is 
a real issue.
    During the week we had initially the White House saying 
Secret Service was entirely to blame. It has come all the way 
around about to last night with Mr. Messina, the assistant 
chief of staff for the White House, saying that the White House 
was now going to begin a policy of having someone from the 
Social Secretary's Office there with the Secret Service.
    What he is not saying is that this is the policy that was 
in effect for at least two previous administrations. To me, the 
issue is, who made the decision, why was the decision made not 
to have anyone from the Social Secretary's Office there that 
night.
    I will say, and I have no doubt of this at all, if someone 
from the Social Secretary's Office had been there doing what 
has been done for at least the previous 16 or 17 years, that 
couple would not have been allowed into the White House. They 
would have been stopped because they were not on the initial 
list. The Secret Service officer would have then handed them 
off to the Social Secretary's Office, and they would have 
resolved it.
    I know in previous administrations, they had a whole team 
of social secretaries and people there. They had people from 
the Diplomatic Office, people from Legislative Affairs, people 
from the President's own staff to avoid embarrassing incidents 
and also to make sure that no one got in who was not supposed 
to be in.
    So for Desiree Rogers not to be here for the White House 
and Mr. Gibbs to sort of offhandedly say at a White House 
briefing yesterday--Mr. Chairman, maybe you received an 
official notice from the White House. We certainly didn't.
    We listened to what Mr. Gibbs said when he said that White 
House staffers don't testify before Congress. That is untrue. I 
was on the Banking Committee in 1994 during the Whitewater 
hearings when President Clinton sent up George Stephanopoulos, 
Harold Ickes, Maggie Williams, who was Hillary Clinton's chief 
of staff, sent up Lloyd Cutler, the President's counsel, and 
also sent up a previous counsel, sent up Mark Gearan, the press 
secretary, all to testify before Congress.
    Yet on this issue, where we are talking about the security 
of the President of the United States, the person who made that 
decision is not going to be here. I think it is wrong. I think 
it is stonewalling. I think it is an affront to our committee.
    This was a bipartisan request, Mr. Chairman, a bipartisan 
request to the White House which prides itself on being open, 
which prides itself on cooperation. But in this instance, they 
are stonewalling. For our committee to work with the White 
House, there has to be an element of trust. They have breached 
that trust.
    I am going to do all that I can, Mr. Chairman. I have 
worked with you to issue subpoenas for the Salahis, to have 
them here, but I also believe we should subpoena Desiree 
Rogers. This is not a separation of powers issue. This is not 
an issue where there are people in the White House advising the 
President on health care or cap and trade or Afghanistan.
    We are talking about an administrative decision to have 
people or not have people standing with the Secret Service and 
to change the policy of at least 20 years standing.
    To me, Mr. Chairman, this is an incomplete hearing. It is 
half a hearing. We are getting half the picture from the Secret 
Service, which has acknowledged its responsibility, and we are 
being stonewalled by the White House, which refuses to.
    I yield back. Thank you very much.
    Chairman Thompson. Thank you very much.
    Just for the record, the Salahis were not on the list. They 
were not stopped. So a Social Secretary wouldn't have had a 
responsibility in this situation. They are party planners. They 
are not security personnel.
    I think one of the reasons we brought Director Sullivan 
here is to explain the role of the Secret Service from a 
security standpoint. He can answer a number of these questions 
as we go forward.
    Other Members of the committee are reminded that, under the 
committee rules, opening statements may be submitted for the 
record. Our sole witness is Mr. Mark Sullivan.
    Mr. Sullivan was sworn in as the 22nd director of the 
United States Secret Service on May 31, 2006. Mr. Sullivan has 
been a recipient of numerous awards for superior performance 
throughout his 26-year tenure with the Secret Service, 
including a Distinguished Presidential Rank Award in 2005.
    Welcome, Mr. Sullivan. I thank you for being here today.
    Without objection, the witness's full statement will be 
inserted in the record.
    I will now ask Director Sullivan to summarize his statement 
for 5 minutes.

 STATEMENT OF MARK J. SULLIVAN, DIRECTOR, UNITED STATES SECRET 
            SERVICE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Sullivan. Thank you, Chairman.
    Good morning, Chairman Thompson, Ranking Member King and 
other distinguished Members of the committee.
    The U.S. Secret Service is an organization that maintains 
deep pride in the work it does on behalf of our Nation. Based 
on the high standards to which the men and women hold 
themselves and the standards the Nation expects, I regret that 
on Tuesday, November 24, established protocols and procedures 
were not followed, allowing two individuals entry into the 
White House.
    The moment this was brought to my attention on Wednesday, 
November 25, I immediately directed our Office of Professional 
Responsibility to begin an investigation and a review into the 
events surrounding the previous evening. Further, I directed 
the Office of Professional Responsibility to contact the 
Department of Homeland Security Office of the Inspector General 
in order to advise them of our investigation.
    While the investigation remains on-going, preliminary 
findings have determined that established procedures relating 
to entering the White House were not followed at the initial 
checkpoint. An error in judgment, a mistake was made. In our 
line of work, we cannot afford even one mistake. In this 
particular circumstance, two individuals, who should have been 
prohibited from passing through a checkpoint and entering the 
grounds were allowed to proceed to the magnetometers and other 
levels of screening before they were then allowed to enter the 
White House. Although these individuals went through 
magnetometers and other levels of screening, their entry into 
the White House is unacceptable and indefensible.
    The U.S. Secret Service relies heavily on the 
professionalism and training of our men and women to make 
informed decisions based upon sound judgment. In this case, I 
fully acknowledge that proper procedures were not followed and 
human error occurred in the execution of our duties. This flaw 
has not changed our agency standard which is to be right 100 
percent of the time. This event does not represent the quality 
of protection that the dedicated men and women of this agency 
provides every day. This past year, we processed more than 1.2 
million visitors into the White House without incident.
    In our profession, however, there is no margin for error. I 
realize many people share our disappointment in this incident. 
As an agency, we will continue to remain our harshest critic 
and take the necessary actions to remedy this issue and 
continue to successfully carry out our critical mission. I am 
extremely confident and proud of the work of our men and women 
and the security measures we put in place on a daily basis at 
the White House, the Vice Presidential residence, and the 
thousands of venues located throughout the world which are 
visited by those we protect.
    The men and women of the U.S. Secret Service work 24 hours 
a day, 7 days a week, every day of the year. Their sacrifice 
and commitment make us the agency that the American people can 
be proud of and depend on. As a career special agent, I am 
confident in our men and women and in our ability to 
successfully execute our mission.
    Chairman Thompson, Ranking Member King, and Members of the 
committee, I am willing to answer questions at this time. 
However, any questions regarding our security procedures will 
need to be discussed in a closed setting.
    Additionally, I would like to respectfully advise this 
committee that, due to the fact that this is an on-going 
investigation, I am unable to answer any question regarding the 
potential criminal aspect of this incident here or in a closed 
setting. Thank you.
    Chairman Thompson. Thank you very much, Director Sullivan, 
for your testimony.
    I will remind each Member that he or she will have 5 
minutes to question Mr. Sullivan.
    I recognize myself for the beginning question. Director 
Sullivan, let me be clear that all of us support the men and 
women of the Secret Service. There is no question about it. Our 
oversight responsibility, though, is when situations like this 
occur, we have to look at them. We have to do our job. It is in 
that pursuit of doing our job that this hearing is being held 
today.
    In addition to that, there are a couple of questions I 
would like to just get on the record. Who is responsible for 
security at the White House?
    Mr. Sullivan. The U.S. Secret Service is responsible for 
that security, Mr. Chairman.
    Chairman Thompson. The U.S. Secret Service. Who is 
responsible for access control at the White House?
    Mr. Sullivan. We are, sir.
    Chairman Thompson. How many checkpoints are we normally 
manning from an access control at the White House at any point 
at the State Dinner?
    Mr. Sullivan. For this particular event, we had three 
vehicle checkpoints, and we had two pedestrian checkpoints.
    Chairman Thompson. Okay. At each checkpoint, did those 
individuals have lists of the guests that would be in 
attendance?
    Mr. Sullivan. Yes, they did, Chairman.
    Chairman Thompson. The two individuals in question, the 
Salahis, were they on any of those lists?
    Mr. Sullivan. They were not.
    Chairman Thompson. It is your testimony before us today 
that they should not have been allowed entrance to this event 
because they were not on the list?
    Mr. Sullivan. That is correct.
    Chairman Thompson. Just for the record, if an individual is 
not on a list, what is the procedure?
    Mr. Sullivan. The procedure would be that they should not 
be allowed entry at that point.
    For this particular event, the protocol would be that that 
officer should contact their immediate supervisor, the 
supervisor would get together with an individual from the White 
House staff. They would determine if, in fact, that individual 
was cleared to come in. Additionally, we could call over to our 
control center to see if these names had been provided for 
clearance.
    Chairman Thompson. Did any of this occur on the evening in 
question?
    Mr. Sullivan. It did not.
    Chairman Thompson. Have you identified all of the personnel 
who would have been responsible for this not occurring?
    Mr. Sullivan. Sir, right now, that is on-going. We have 
identified three individuals right now. We continue to 
investigate. We have done--since this occurred, we have done 
numerous interviews. We continue to go back and re-interview 
people. But right now, we have three individuals who we have 
identified, but I am not sure if that will change or not. But 
right now, we are--one thing we are sure of, the checkpoint 
where this did occur.
    Chairman Thompson. So they were not on the list. Have you 
determined how an individual not on the list could gain 
entrance to this event?
    Mr. Sullivan. I have, sir.
    Chairman Thompson. Is that something you are comfortable in 
sharing in this setting or like to do it in another setting?
    Mr. Sullivan. I would be happy to share that. We had 
established protocols. They weren't followed. What we find is 
that if the protocols are followed, we won't run into this type 
of a situation. Clearly, this protocol was not followed. A 
mistake was made, an error in judgment, and that allowed these 
two individuals who should not have been allowed entry into the 
White House.
    Chairman Thompson. Can you tell us whether or not any other 
individuals may have gained entry into the White House in a 
similar manner this evening?
    Mr. Sullivan. Sir, that was a concern on my part as well. I 
can tell you that our investigation indicates that no other 
individuals were allowed entry that evening that should not 
have been allowed to come in.
    Chairman Thompson. The one question that--because these 
individuals were not on the list, they did not get vetted or 
anything like that, do you think this not occurring provided 
any risk to those individuals who attended the State Dinner?
    Mr. Sullivan. Sir, like everyone, I am extremely 
disappointed that these people were able to enter the White 
House. However, I would say that these people went through 
every layer of security that every other individual went 
through going into that building. Again, I would be more than 
happy to talk about what those levels of security are in a 
closed briefing.
    But I would say, from a risk perspective, I feel confident 
based on what I have heard, based on what I have seen, based on 
what I have been briefed on, they did not provide a risk to the 
President.
    Chairman Thompson. So you are comfortable in making that 
statement?
    Mr. Sullivan. I am comfortable in making that statement, 
sir.
    Chairman Thompson. Thank you.
    I yield to the Ranking Member.
    Mr. King. Thank you, Mr. Chairman.
    Mr. Director, my understanding is that the Salahis when 
they went to the first checkpoint and their name was not on the 
list----
    Mr. Sullivan. I am sorry, Mr. King.
    Mr. King. My understanding is that when the Salahis came to 
the first checkpoint, their name was not on the list, and they 
told the Secret Service agent that they should be on the list, 
and they had been invited, and they talked themselves through. 
Is that a fair analysis? Or is that part of the investigation?
    Mr. Sullivan. It is part of the investigation. What I will 
tell you is that these two individuals did show up at the list 
representing themselves to be on the list. Our officer looked 
at the guest list, did not see their names there, and allowed 
them to proceed to the next checkpoint to have their names 
checked up there.
    Mr. King. My understanding is, and I have seen this 
personally myself, often--not often--but certainly at times, 
people who should be on the list are not. When they say they 
are on the list--should be on the list and they are not, 
somebody from the Social Secretary's Office is there. The 
Secret Service agent hands the guests over to the Social 
Secretary and goes back to processing those who are next in 
line. Is that the way it has been done in the past?
    Mr. Sullivan. Sir, for every event that we have at the 
White House, we have a planning meeting with the White House 
staff. We did have a planning meeting for this particular 
visit. During that planning meeting, we all agree about what 
our predetermined responsibility will be for that particular 
event. In this meeting, we agreed that at that particular 
checkpoint, we would take control of the list.
    Mr. King. Let me just ask you, have you had any other 
events at the White House, certainly one of significance, a 
State Dinner, where there was no one from the Social 
Secretary's Office there with the Secret Service?
    Mr. Sullivan. Sir, I have asked our people to go back and 
look at that. We have seen other events where that has 
occurred. It does not happen often, but we have seen other 
events, Mr. King, where that does in fact occur.
    Mr. King. Do you know if it has happened at any previous 
State Dinner?
    Mr. Sullivan. I do not know that. But I can get back to you 
on that.
    Mr. King. This is a hypothetical. If, when they come up to 
the security checkpoint and they said we are on the list, the 
Secret Service agent says you are not, if there had been 
somebody from the Social Secretary's Office there, would the 
agent have referred them to these Social Secretary's Office and 
continued to process those on line?
    Mr. Sullivan. I believe what they would have done is they 
would have worked the issue together. I don't think that the 
officer would have totally just dismissed it to that particular 
person. I would think that that----
    Mr. King. I don't mean to dismiss it. Would they wait to 
see what the Social Secretary's Office could find and then come 
back to the Secret Service agent rather than the Secret Service 
agent stop processing everyone on line ahead of them and just 
deal with this individual or these individuals?
    Mr. Sullivan. Mr. King, I think that is one of the things 
we talked about in our after-action review of this as we talked 
with the White House staff. I believe we both recognized that 
there is a need to have somebody there from the White House, 
and that is why, as we saw yesterday, new guidelines were put 
out where, for all of these events in the future, without 
exception, there will be somebody there from the White House 
staff.
    Mr. King. Won't those guidelines be similar to almost 
everything that has been done before, other than last week?
    Mr. Sullivan. You know, again, Mr. King, many of the events 
we have done over the past 9 or 10 months, there have been 
people from the White House staff at this checkpoint. For this 
particular event, prior to this event, we agreed that we would 
control that, and there would be somebody from the White House 
staff----
    Mr. King. Excuse me. My time is starting to run out. You 
said it was agreed. Who initiated that? Did you ask the Social 
Secretary's Office not to be there, or did they ask not be 
there?
    Mr. Sullivan. I just know that that is what the result of 
our meeting was, sir.
    Mr. King. But isn't it unusual for all of these events--I 
think I have been to over 40 of them. Probably all of my 
colleagues have been to a similar amount, whether it is 
Christmas parties or barbecues, an occasional State Dinner, we 
always see somebody, whether it is the Social Secretary's 
Office, the President's staff, Legislative Affairs, there is 
always someone there with the Secret Service. It is interesting 
to me that for this one event, the most important one of the 
year, where you have a prime minister from a country which was 
attacked by terrorists last year, that at this event, which is 
also a larger crowd, with rain expected, the Social Secretary's 
Office just left, and the Secret Service was there by itself.
    Listen, I thank you for accepting responsibility. But the 
only way we can find out as to who initiated this change and 
what the real procedure is going to be in the future and why it 
was done this way last Tuesday, to me, we can't do it unless we 
have someone from the White House having the guts to come down 
here and testify instead of hiding behind a phony claim of 
separation of powers.
    I yield back.
    Mr. Sullivan. The only thing I would say, Mr. King, is 
that, during that meeting, it was agreed upon that there would 
be people from the White House staff available in a roving 
capacity. Again, I take responsibility for the fact that we did 
have that available to us. That is what should have been--those 
people just should have been stopped there, and we should have 
called for someone to come out and to help expedite----
    Mr. King. If there had been someone next to the Secret 
Service agent, this would not have happened. They wouldn't have 
gotten in. If someone from the Social Secretary's Office was 
standing where they have always stood in the past, the Salahis 
would not have gotten in.
    Mr. Sullivan. It would have helped.
    Chairman Thompson. Thank you very much.
    Just for the record again, no one would have been allowed 
in that event if they had not been vetted. Am I correct?
    Mr. Sullivan. That is correct, Mr. Chairman.
    Chairman Thompson. Whether they talked to the Social 
Secretary or whomever.
    Mr. King. Mr. Chairman, if you would just yield for a 
moment. My understanding is that they got left off the list.
    Chairman Thompson. No. Let me----
    Mr. King. That is the purpose of having the Social 
Secretary there.
    Chairman Thompson. I defer to your questions.
    Mr. Sullivan. I am sorry, Chairman. All I was going to say 
is, there have been occasions where people have shown up, that 
have not been vetted, where we will have conversation with the 
White House staff, and those people have been allowed to enter. 
That is very rare, but there are--on occasion, people have 
come. If both the White House staff and us agree--and this is 
in every--not just this administration but other 
administrations--where if we feel there is a need for those 
individuals to be let through who haven't been vetted, and we 
and the staff are both in agreement with that, those people 
will be allowed in. But that is to answer your question, not 
what happened here.
    Chairman Thompson. Thank you.
    The gentlelady from California for 5 minutes, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you, Mr. Sullivan, for being before us today. First, 
let me begin by saying I think the Secret Service does a great 
job, and it saddens me to see that there was such a lapse this 
time at the White House.
    In the past, I know that there has always been close 
communication between the Social Secretary for the White House, 
legislative--Legislative Affairs, for example, if we are going 
to have the Congresspeople that are going to come for the 
Christmas party.
    Every single time that I have entered the White House, 
there has always been somebody from the President's--from the 
White House there at the very first point before you ever even 
get to the checkpoint where they check your purses, et cetera. 
Every time. Even if it has just been a meeting with the 
President over a particular policy, there has always been 
somebody out there.
    So my question--the first question I have for you is, in 
this preplanning meeting, did you all decide that no one would 
be specifically assigned from the Social Secretary's Office or 
Legislative Affairs or what have you at the first checkpoint? 
Was that a decision made? Because I heard you say there were 
going to be roving people. But was there a definite decision 
that nobody would be standing next to the Secret Service as 
people first made entry or attempts to come into the event?
    Mr. Sullivan. My understanding, Congresswoman, is that 
there was an agreement that, at that initial checkpoint, we 
would man--we would have that list on our own, and that if any 
discrepancy did come up, that we would then call for somebody--
that person was to call for their supervisor, and they, in 
fact, would get in contact with somebody from the staff, who 
was down around the main entrance point at the East Wing, and 
they would be available to come out and help out with the 
issue.
    Ms. Sanchez. So your feeling is that your first Secret 
Service agent who was standing there with the list and realized 
that the couple in question was not on there, that in fact 
they--their purpose was then to call over somebody from the 
White House and confer as to what to do with that person?
    Mr. Sullivan. Correct.
    Ma'am, every day, we have people show up to various gates 
at the White House, who just show up; they want to come in.
    Every day, our people make the appropriate phone calls, 
appropriate contact to see if maybe we have missed something on 
our list and if, in fact, these people are expected to arrive.
    I look at this no different. For me, this began and ended 
at that checkpoint. It was a simple protocol, a simple 
procedure that we had in place, that if somebody came up who 
wasn't on the list, make contact with somebody who could come 
and help you expedite that individual in or determine if, in 
fact, they should be turned away.
    Ms. Sanchez. That is why it surprises me, because every 
time I have been to the White House and I have had a guest that 
has been vetted ahead of time with Social Security number and 
everything else we need to supply and showing IDs, there are 
still times when we are set aside and said, wait, we don't have 
your guest on the list, let's talk about this.
    But it has always come not--in conjunction with somebody 
from the White House. So, why, in this particular instance, 
because I have never seen this instance before, and it has been 
under three Presidents that I have been going to the White 
House, Democrats and Republicans, that I have never just seen a 
Secret Service agent, in particular, with such an important 
process, with so many important people waiting in line to get 
through, why do you--why would you all agree that no person 
from the White House would be standing there, first of all, to 
greet guests, which is one of the most important things that 
the Social Secretary should be doing at that point, but at the 
same time, if there were problems, to immediately be able to 
take care of them and start some chain of line to figure out, 
is this person here? Why ahead of time, for one of the--I have 
never seen this happen before. Why would you all agree to that?
    Mr. Sullivan. I would acknowledge that I believe that is 
very rare. I haven't seen that happen myself all that often, 
and I do believe that the statement, the memorandum that was 
put out by the White House yesterday, I believe that they 
recognized that as well and that they stated in that memorandum 
that we are there to work as partners, to make sure we get 
everybody in that should get in and prevent people from getting 
in that shouldn't get in. I do believe that, because of this 
particular issue last week, I think there was a recognition by 
all of us, that that is the way things should be done, and I 
think, going forward--I know, going forward that is the way 
things are going to be done.
    Ms. Sanchez. I thank you for taking responsibility, but I 
think there is a lot of responsibility that should be spread 
out on this.
    Thank you, Mr. Sullivan.
    Mr. Sullivan. Thank you, Congresswoman.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The gentleman from Indiana, Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman.
    Mr. Sullivan, you have used checkpoint repeatedly. Were 
there points--two or one that had a list?
    Mr. Sullivan. There were two, sir.
    Mr. Souder. So it wasn't a point. It was checkpoints that 
failed?
    Mr. Sullivan. Yes, sir.
    Mr. Souder. The list that you are referring to, was the 
list provided to you by the Social Secretary or is this a list 
that has been--Social Security numbers have been vetted, there 
has been background checks on the individuals that might have 
turned up, some of the questionable things in this couple's 
background and who they were associated with, was the list a 
Social Secretary list of who we invited, or was it a vetted 
list?
    Mr. Sullivan. I believe I have this right, and if I don't, 
we will correct it.
    What happens before the event, the White House staff will 
give us a list of all the people that have been invited. We 
will then take that list, and they will also provide us with 
name and date of birth and Social Security number. We will then 
run all those--we will do the appropriate record checks for all 
those individuals. If anything does come up that would lead us 
to believe that somebody should not be let into the White 
House, we would get back to the White House staff on that.
    Once that--once all that vetting is done, we will get back 
to the White House staff on that, and then they will give us 
back a complete list of who is going to be attending that 
event.
    Mr. Souder. So for the Social Secretary's Office or anyone 
from the White House or for any influential individual to walk 
up and say this individual should be allowed in, you said, you 
think that has been done in the past without vetting, or would 
they also have to say that this individual has been vetted 
before?
    Mr. Sullivan. I would say that that would be a very, very 
rare occasion. I would say if, perhaps, it was a Member from 
the Hill or if it was some other individual who is a family 
friend; I mean, this would have to be someone that is known to 
them. We would talk through, and we would allow them into the 
White House. But, again, that would be when all of us are 
comfortable, and we know who we are dealing with. But again, 
that is very rare occurrence, sir.
    Mr. Souder. The Salahis have been flashing all over the 
National media e-mails that suggest that there could have been 
a potential of a mistake, showing that they had exchanges, 
asked to be on the list; that they were supposed to be called 
back. But then they claimed that they were gone and hadn't 
heard it. Did they show those e-mails that the whole country 
knows exist now?
    Mr. Sullivan. Sir, that gets into the elements of our 
criminal investigation, and again, I cannot, based upon 
information in conversation we had with the U.S. Attorney's 
Office, I just would prefer not to talk about that.
    Mr. Souder. One of my concerns--because this feels like, as 
they say, deja vu all over again. When I was first elected to 
Congress, and we came in--I was elected in 1994. We came in on 
the Government Oversight Committee. We started a whole round of 
investigations in 1995 and 1996 about White House clearances, 
and the question was, Dick Morris and the Thomasons were not on 
a clearance list, yet they were coming into the White House 
regularly. That led to a whole question of having clearance 
lists with dead people on it, with people who shouldn't have 
been on the list, who was holding those lists. That led to 
questions of what the coding on the list was. That is how we 
found LB meant Lincoln Bedroom.
    We have been through this before with the Secret Service. 
We have asked this to be clarified and fixed. The question was, 
in looking at a casual visit of some individuals and the slip-
up on the list, it led to a fundamental question about how and 
when these lists are changed. Because you said, well, they went 
through all the checks, and there was no danger to the 
President or the Prime Minister of India.
    If there is no danger, why do you do background checks? 
That is a fundamental question, because casual visitors from 
Indiana to see the White House Christmas tree are subjected to 
background checks. You just said here that it didn't matter 
really that you didn't do the background checks because they 
had been vetted at so many points, and there was no danger to 
the President. Was there danger to the President or not danger 
to the President? If there isn't danger to the President 
because you have all these different points to see that they 
don't have a gun, they don't have these things, why do you vet 
every visitor to see the White House Christmas tree?
    Mr. Sullivan. Sir, doing background checks are one level of 
our security. Just because we do a background check on somebody 
that comes back they have no record, to me that does not mean 
that there is no danger.
    Mr. Souder. But my question is, you said there was no 
danger to the President because they went through all of these 
things to show that they basically didn't pose a threat. Is 
that correct? Was there a threat to the President or not a 
threat to the President?
    Mr. Sullivan. Sir, we have countermeasures in place, and I 
am confident in telling you that there was no threat to the 
President.
    Last week, sir, we took him to a basketball game with 5,000 
people, and he was surrounded by those 5,000 people.
    Mr. Souder. I understand that. But why do you then run a 
background check on every individual that is coming in when 
they aren't even going to see the President, they are not going 
to get their picture taken with the President, they are not 
going to get their picture taken with the Vice President, they 
are not going to see all these other people there in a one-on-
one type of thing, why do you run less of a background check on 
individuals there than you would on a casual visitor? Because 
you said sometimes it is waived. You said there was no danger. 
The presumption is you are doing a background check because 
there is a potential danger.
    Mr. Sullivan. Sir, would I have liked to have stopped those 
people at that checkpoint? I would have. Do I think those 
people should have been name-checked? I do.
    But does that mean there was a danger to the President 
because two people came in who weren't name-checked? I don't 
believe it does. I believe that our levels of security, I 
believe that we keep agents in close proximity to those people 
that we protect. Our agents--if we thought that doing a name-
check was going to secure his safety, then we wouldn't have any 
more security, and the White House would tell all of our people 
that they could stand down.
    We don't believe that. We know, with all due respect to 
those 400 people that came to the White House last week, we 
continue to look at all those people, even though they have 
gone through name-checks, no matter who those people were. Our 
agents, when people are walking up to a photo shoot, we are 
looking at those people as they approach. We are looking at 
their body language. We are looking at their gestures. We are 
looking at any type of furtive action there. You know, we don't 
rely on just any one level of security here. We look at 
multiple layers of security. Again, I would be more than happy 
to talk to you about that in a closed setting.
    But we do do background checks.
    Chairman Thompson. Thank you.
    The gentleman's time has expired.
    The gentlelady from California for 5 minutes, Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman.
    Mr. Sullivan, I applaud you for taking full responsibility 
for this incident. It is not an easy thing to do, but you 
haven't flinched. You are right that, as you said, ``in our 
line of work, we can't afford even one mistake.''
    As you can see, everyone on this committee, on a bipartisan 
basis, views this as a security issue. Hopefully none of us 
cares whether Us Weekly is covering it. We care whether the 
life of our President and high-level officials from our country 
and from India and others were protected at last week's event. 
We care very much going forward whether there are lessons 
learned. I think that ought to be clear. Certainly that is what 
I care about.
    I focused in eight terms of Congress on security issues. 
That is my passion. That is what I do. I chair the Intelligence 
Subcommittee of this committee, and on numerous occasions, I 
have been briefed by you on threats to the President of the 
United States and what the Secret Service is doing about them. 
I have been to your headquarters to see firsthand what you do. 
I want to thank you and the people who work for you for your 
service. Again, I want to thank you for taking responsibility, 
full responsibility, for this incident.
    My questions are about, what will we do going forward? What 
will we do differently? All of us remember the so-called purple 
tunnel of doom at the inauguration. That was, I thought, a 
demonstration of poor crowd control by your agency and other 
agencies at a large outdoor event. That is not the same as this 
event. But it causes me to ask some questions.
    I think that entering the White House should not be like 
shopping at a big box retailer the day after Thanksgiving. I am 
sure you agree. Going forward, tens of thousands of people are 
going to be at the White House in December looking at the 
Christmas decorations and attending a number of receptions. We 
are all going Monday night with guests, and we have submitted 
the Social Security numbers and the dates of birth of those 
guests, and we know they are being vetted and think they should 
be.
    So my question is: Should we have a better business model 
here for large crowds and smaller crowds? I attended recently 
the Bruce Springsteen concert in Washington. It was quite 
wonderful. I just want you all to know. Some of you may have 
gone. But it was also a very smooth security experience. 
Tickets were received well in advance. They were printed on 
high-tech tamperproof paper. They came with bar codes that were 
quickly scanned for authenticity. There were no lines. There 
was no confusion. There was no security problem.
    I am not suggesting that Christmas at the White House is a 
Bruce Springsteen concert. But I am suggesting that there may 
be more modern techniques for screening people who are trying 
to enter the White House building.
    Let me finally suggest, too, that, as this committee knows, 
layered security always works better. Ms. Sanchez and I have 
collaborated for years on port security, and that is what we 
have put in place. So, in that regard, I very much applaud her 
comments about the Social Secretary's Office. A Social 
Secretary participation in screening people adds to layered 
security, and I sure hope those lessons have been learned.
    So my question to you is: Do we have the right security 
model here? Are there things that you can improve immediately 
with respect to screening people who will come to the White 
House next month? Are there things that this committee, either 
legislatively or informally, should be working on to make your 
job more effective?
    Mr. Sullivan. Thank you.
    I agree with you. One of the things we do is we are 
continually looking at our methods and our procedures. That is 
not just because of this event. We do that continually. We are 
continually looking at how technology can help us out, you 
know, X-ray machines and other types of technology. We have a 
Technology Working Group, which is not just our organization, 
but it is other Federal organizations, the academia. We are 
dealing with all of those people out there in a partnership to 
see if we can come up with the best methodology to expedite 
people through and to make sure that we do it in a way that is 
going to be nonintrusive and make sure that it is very 
efficient.
    I would say that, in this particular case, again, I don't 
think any level of technology, I don't think any level of 
funding is the reason for why this happened. Pure and simple, 
this is a human error. We could have had the best technology. 
We could have had all the funding that we would ever want. But 
this still would not have prevented this from happening.
    If people don't follow the established guidelines, it is 
going--something like this is going to happen. As I said 
before, we put 1.2 million people through the White House over 
this past year, and all those people were put through without 
an incident because we did follow procedure. So I do agree with 
you that we need to continually look at technology and whatever 
methodologies that are out there to ensure that we get people 
in as safely as we can. I do think that that didn't matter in 
this particular situation.
    Ms. Harman. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The gentleman from California, Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    I would just say that it is too bad that it takes a royal 
screw-up for us to regain the urgency we need about security in 
this country. I wish the press were as tentative to the issue 
of the sunsetting of three major provisions of the PATRIOT Act 
that will occur at the end of this month unless we act on it, 
including the lone-wolf provision, which the Judiciary 
Committee deemed should be dropped on the very day that we had 
a lone-wolf attack, a domestic lone-wolf attack at Fort Hood.
    I hope we don't have to have a royal screw-up with respect 
to security in a larger sense for us to get the attention of 
the media on something like that.
    Let me just ask you, Mr. Director, first of all, from your 
testimony, you do not make up the list of the invitees, 
correct?
    Mr. Sullivan. That is correct.
    Mr. Lungren. The White House does?
    Mr. Sullivan. Yes, sir.
    Mr. Lungren. You vet the names given to you on that list; 
is that correct?
    Mr. Sullivan. That is correct.
    Mr. Lungren. So your officers are not responsible for the 
list and would not know why someone is on the list or not on 
the list from an invitation list rather than a vetting 
situation, correct?
    Mr. Sullivan. That would be correct.
    Mr. Lungren. So it seems to me it would be logical, it 
would be helpful to have someone from the White House with your 
personnel at the time the decision is made when someone 
presents themselves to the White House who is not on the list.
    Mr. Sullivan. Yes, sir. I believe there is an 
acknowledgement that----
    Mr. Lungren. So let me ask you, you said there was a 
decision made beforehand that that would not be the case here. 
Was that your recommendation?
    Mr. Sullivan. Sir, that was a recommendation that we made 
together as----
    Mr. Lungren. Well, so it was your recommendation?
    Mr. Sullivan. It was a joint recommendation.
    Mr. Lungren. Why would you make that kind of a 
recommendation?
    Mr. Sullivan. Sir, we looked through the issue of last 
week. We sat down. We talked about this. When I say ``my 
recommendation,'' we had our people get together with the White 
House staff, they looked at the events surrounding last week--
--
    Mr. Lungren. Sir, I don't need to know the process. I want 
to know, why? That is the question. Why would you or members of 
your staff decide that it would make sense not to have somebody 
from the White House at both of those--well, however many 
points there were with your personnel?
    Mr. Sullivan. Do you mean, why did we make the decision 
that there was nobody--I am sorry, sir.
    Mr. Lungren. Why would you make the recommendation? Why did 
you make a recommendation? You said it was a shared 
recommendation. Why did someone from the Secret Service decide 
that made sense?
    Mr. Sullivan. I believe, in looking at what happened last 
week--we again, sir, we have done this with, not only this 
administration but with previous administrations where we have 
taken responsibility for that list. This is the first time that 
we had a breakdown based on our people accepting that 
responsibility.
    Mr. Lungren. So it has been done in the past?
    Mr. Sullivan. Yes, sir.
    Mr. Lungren. Has it been done when you have a State Dinner?
    Mr. Sullivan. As I mentioned earlier, I don't know that. 
But I would be more than happy to get that information.
    Mr. Lungren. So you don't know whether it has ever been 
done when you have had a head of state of a nation that has 
been the subject of a recent terrorist attack?
    Mr. Sullivan. I do not know that.
    Mr. Lungren. I will just say, for the record, if your folks 
made that recommendation, if you made that recommendation, it 
is inconceivable to me why you would do that. All you needed to 
do was have someone from the White House standing there. That 
is too much to ask. That is what they are supposed to do. 
Frankly, I----
    Mr. Sullivan. Sir, I think there is a misunderstanding 
then. Are you saying, did we make the recommendation 2 weeks 
ago during the planning period that we would be there by 
ourselves?
    Mr. Lungren. Yes. That is the question I just asked you.
    Mr. Sullivan. Sir, no. I apologize. As I said, they had a 
planning meeting prior to that event.
    Mr. Lungren. I understand. I am just asking whether your 
folks made the recommendation that that ought not to be--that 
you ought not to have someone from the White House there.
    Mr. Sullivan. Sir, I don't know who made the 
recommendation. All I know is that, in the planning, an 
agreement was made that we would take that list and that there 
would be other individuals available from the White House staff 
that would respond to that checkpoint to help with any 
discrepancy.
    Mr. Lungren. I am just trying to ask, did that come from 
your side of the house?
    Mr. Sullivan. I don't know that.
    Mr. Lungren. Will your investigation reveal that?
    Mr. Sullivan. It will.
    Mr. Lungren. Okay.
    You talked about layered security. I am an absolute 
believer in layered security. But the fact of the matter here 
is that one of the layers was not there, correct?
    Mr. Sullivan. I would say, sir, that the protocol was not 
adhered to.
    Mr. Lungren. Well, I would say one of the layers was not 
there.
    Mr. Sullivan. I would say that there was a breakdown in 
that layer. That is what I would say.
    Mr. Lungren. You say ``human error'' repeatedly. You said 
procedures were not followed. You said it was unacceptable, and 
you said it was indefensible. Normally when you have an 
organization where you have a screw-up like that, there are 
consequences that flow from that.
    What I mean by that is this: The only way you are going to 
assure that you don't have screw-ups in the future--and you 
said it yourself; we can't afford to have a screw-up. It 
doesn't matter how many millions of people go through; you 
can't afford to have a screw-up. Or as has been said many 
times, terrorists only need to be successful once. We have to 
be successful all the time. The consequences after the review 
takes place, are there going to be consequences for people who 
made the human error, or are we just going to shrug our 
shoulders, and say, well, it was human error?
    Mr. Sullivan. Sir, right now the individuals who have been 
identified have been put on administrative leave, and beyond 
that, I would prefer not to go further. But I will tell you 
that we are going to look at this. We are going to find out 
what the culpability was, and we will take the appropriate 
action.
    Mr. Lungren. Thank you.
    Chairman Thompson. The gentleman's time has expired.
    The gentlelady from the District of Columbia for 5 minutes, 
Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I appreciate that you so quickly accepted responsibility, 
Mr. Sullivan. That is what we expect from a great police force, 
and that is what the Secret Service is, and that is more than 
the Salahis, who have done--who continue to indicate they were 
invited, even in the face of the evidence, and are a no-show at 
this hearing where they could have explained themselves fully, 
as you are doing today.
    You indicated earlier in your testimony--I think I am 
quoting you--no others entered. But how did you discover that 
the Salahis had entered? Did you discover it through their 
Facebook, or was it your own discovery that some interlopers 
had entered?
    Mr. Sullivan. We did not discover that on our own. We were 
advised of it the following day.
    Ms. Norton. Advised by whom, sir?
    Mr. Sullivan. The Facebook.
    Ms. Norton. So, for all we know, there were other 
interlopers there, because this mistake was made. These con 
artists who are so hungry for publicity exposed and revealed 
themselves. You see the danger I am speaking of, sir?
    Mr. Sullivan. Ma'am, that was a concern of mine as well. 
That is something that we have focused on. I cannot talk about 
it in this setting, but I believe I can satisfy you in 
explaining that there were no other people there that night 
that should not have been.
    Ms. Norton. Mr. Chairman, I am going to have to be 
satisfied to that end in private.
    I was at the State Dinner. Once you got through that 
checkpoint, I don't know how you could say to this committee 
you were sure that no others got in, especially since we have a 
precedent for someone who did get in. So I think the committee 
has to know how they can assure us that there were no other 
interlopers.
    For all of the twittering about the Social Secretary and 
these serial con artists, what I see is that this couple has 
pioneered a new way to breach security. Forget about all of 
your barriers, forget about your IDs; be a poser, that will get 
you in quicker than anything else.
    Let me tell you what my concern is, Mr. Sullivan. It is 
well known, it has been in the press over and over again that 
this President has received far more death threats than any 
President in the history of the United States, an alarming 
number of death threats. I am not going to ask you for the 
details on that. But here we had the first State Dinner, not of 
just any old President, but of the first African-American 
President. Was there any attempt to increase security, given 
all you know, which is much more than we know, about threats to 
this President of the United States?
    Mr. Sullivan. Ma'am, no matter who the President is----
    Ms. Norton. I am asking about this President, and my 
question is very specific. Given death threats to this 
President, was there any attempt to increase the security at 
this event? Yes or no?
    Mr. Sullivan. I cannot talk about that.
    No. 1, I will address the threats. I have heard a number 
out there that the threat is up by 400 percent. I am not sure 
where that number----
    Ms. Norton. Is it up at all? We are not asking for the----
    Mr. Sullivan. I think I can answer you, ma'am. It is not at 
400 percent. I am not sure where that number came from.
    Chairman Thompson. Just a minute. We can't hear the 
gentleman.
    Ms. Norton. Please don't assign to me a number in my 
question. I just asked you if the threats were up. Are the 
threats up?
    Mr. Sullivan. They are not. The threats right now, in the 
inappropriate interest that we are seeing, is the same level as 
it has been for the previous two Presidents at this point----
    Ms. Norton. This is very comforting news. Let me ask you, 
reportedly there were as many as three or four times as many 
people at this State Dinner, had to be held in a tent-like 
building, is that not the case?
    Mr. Sullivan. I believe there were 400 people, yes, ma'am.
    Ms. Norton. There are normally about 100, 120 people.
    Mr. Sullivan. Correct.
    Ms. Norton. Did you have extra forces, extra people on the 
ground to assist you with this State Dinner?
    Mr. Sullivan. Yes, ma'am. We will always adjust our 
security plan depending upon the----
    Ms. Norton. Were there extra people, given the fact that 
there were three or four times as many people at this State 
Dinner?
    Mr. Sullivan. Yes, there were.
    Ms. Norton. Where would you have gotten them from? I ask 
you that because a recent internal report of the Congressional 
Research said if there were an evaluation of the Service's 
missions, it might be determined that it is ineffective to 
conduct its protection mission and investigate financial 
crimes.
    Were D.C. police there to help you?
    Mr. Sullivan. I do not believe so.
    Ms. Norton. Well, do you need more people? Do you have 
enough people who are Secret Service people when you have to 
cover three times as many people, or perhaps more, at a State 
Dinner?
    Mr. Sullivan. No, ma'am. The No. 1 priority of our 
organization is to protect the President. We are always going 
to have enough resources, enough people to protect him. We had 
the appropriate level of staffing at that event last Tuesday. 
The number of people we had was not the issue.
    Ms. Norton. When you questioned the Salahis, were they 
under oath?
    Mr. Sullivan. Ma'am, I can't get into that because of our 
investigation.
    Ms. Norton. You can't tell us whether they were under oath 
or not? You have submitted the transcripts; I am simply asking 
you, were they under oath or not?
    Mr. Sullivan. Are you talking about were they under oath 
when they came to the checkpoint?
    Ms. Norton. No. When you interviewed them, when your 
officers interviewed them.
    Mr. Sullivan. Ma'am, I have been informed by the U.S. 
Attorney's Office that I cannot talk about any aspect of the 
investigation we have on-going.
    Chairman Thompson. We plan, at the end of the hearing, to 
go into a more structured setting so we can get some of these 
questions answered.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Sullivan. I apologize for that, but I just can't go 
into those elements of the investigation.
    Chairman Thompson. The gentleman from Alabama for 5 
minutes, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    I want to go back to this preplanning event with the White 
House. You said that you all mutually agreed to not have a 
person from the White House staff at the checkpoint. Who 
suggested that at that meeting?
    Mr. Sullivan. I don't know that, sir.
    Mr. Rogers. Do you know who was in that meeting?
    Mr. Sullivan. I do not.
    Mr. Rogers. Can you get us the information of who was in 
that meeting for the preplanning?
    Mr. Sullivan. Yes, sir.
    Mr. Rogers. Also, I would like to ask, in follow-up to Ms. 
Norton's questions about when this came to your attention, it 
is my understanding from a Washington Post story that the night 
of the event, during the State Dinner, a Roxanne Roberts, who 
was at the event, went over to a White House staffer and told 
them that they didn't believe, when the Salahis were announced, 
that they were supposed to be there. Were you aware of that?
    Mr. Sullivan. I am aware of that.
    Mr. Rogers. Did you read that story?
    Mr. Sullivan. Yes.
    Mr. Rogers. Can you tell us anything about that 
conversation, what it yielded?
    Mr. Sullivan. We did read that, and that is part of our 
investigation, which I cannot get into.
    Mr. Rogers. So you don't know or you can't tell us if that 
White House staffer that was informed about the Salahis did or 
did not go to a Secret Service agent and communicate that 
information?
    Mr. Sullivan. Sir, I cannot comment on that.
    Mr. Rogers. Okay. You talked earlier about not being on the 
list, that in the past there have been events where a staffer 
would come over and say, yeah, we want to go ahead and let them 
in.
    Mr. Sullivan. Again, that is not as much about an event, 
but just somebody might come to the White House--again, a 
Congressperson or a friend of the family may come to the White 
House at some time during the day wanting to get in. Our 
officers will always call the appropriate people to find out if 
in fact this person has been invited. They may not be on a 
list, but clearly, because of their friendship, because of 
their position, because they are known to the family or they do 
have a legitimate reason to be there, we are not going to turn 
those people away; we are going to work with the staff and make 
sure that we get those people in. I think we have to come to a 
level of common sense here that there are people that have a 
legitimate reason to be there, the staff wants them in there, 
if they have a meeting and they just somehow didn't get on a 
list, we are going to ensure that we get those people through.
    Mr. Rogers. Well, I understand that in a daytime setting, 
but in a large venue event--and you would think at the White 
House it would be the easiest to adhere to those protocols that 
you talked about earlier. But as you mentioned, there are many 
venues away from the White House where the thought of somebody 
being waved in by a staffer is frightening because we don't 
know who that staffer is and what their background is and what 
their connections may be.
    Mr. Sullivan. But again, this would be, sir, again, this is 
more the exception; it is for those people that we both agree, 
yes, in fact, that they should come in. Both parties are both 
confident that that person should be in. If I gave the 
impression that we did this for parties or a State Dinner, I 
apologize, because that wasn't my intent. My intent is that 
there are people who show up at the White House on occasion, 
mainly during the day, mainly for a business reason, that if 
they need to get in, we are going to work with the staff and we 
are going to ensure that they are allowed to get in.
    Mr. Rogers. Well, I think Ms. Norton raised a good point a 
little while ago when she emphasized that this has probably 
happened many times.
    Mr. Sullivan. What has happened many times?
    Mr. Rogers. That what happened at this State Dinner has 
probably happened many times. We just didn't know about it 
because they didn't post it on their Facebook and go out and 
brag about it.
    Mr. Sullivan. Sir, I would say absolutely not. I would say 
that this is an aberration. Again, we take our protection 
duties very, very seriously; protecting the White House is our 
No. 1 priority. I do not believe--I know that this has not 
happened many times before or any time before.
    Mr. Rogers. Well, I hope not. This is a pretty scary 
scenario when you think about the President of the United 
States being exposed to somebody who just walked in off the 
street.
    You made the statement earlier that you felt like the 
President was not in danger, well, maybe not in this case, but 
the fact is these people could have been bad guys who could 
have been carrying biological or chemical agents on them. The 
President could have been in danger. Just because they didn't 
have a gun that was revealed from a magnetometer does not mean 
that he or the Vice President or the Prime Minister were not in 
danger.
    I would like to think, going forward in the future, that no 
person who was not on the list could get into the White House, 
no matter what staffer tried to wave them through because you 
do have these pre-event protocols that are followed for a 
reason.
    But I would love to hear your response to the danger they 
may or may not have been exposed to without the party crasher 
having a gun or not.
    Mr. Sullivan. Sir, the chem/bio issue you brought up, I 
would be more than happy to address that in a classified 
briefing, but those are countermeasures that we do take into 
account. Again, I would not want to talk about those in here.
    Make no doubt about it, I am not trying to minimize the 
fact regarding the danger here. I don't like what happened. 
None of us want to see that happen here. But I am confident in 
our levels of security, in our men and women that are 
protecting the President in close proximity to him in all the 
situations we put him in. Sir, we travel all over the country. 
It is very difficult protecting a President in a democracy, and 
it is our job to make sure that that person is able to get out 
their agenda, get out their message and have access to people. 
We deal with these types of situations every day.
    As it has been said, if we had our way, we would put them 
in a bubble; we know we can't do that. We want to make sure 
that we are able to get that person out there, no matter who it 
is, and allow them to get out their message, allow them to get 
out their agenda. I will tell you that we do it every day. We 
have to let people have access to them. But we do have people 
that are prepared to react to any type of threat in close 
proximity. I am confident in our people.
    Mr. Rogers. Thank you, Mr. Chairman.
    Chairman Thompson. The gentleman's time has expired.
    The gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you very much. Mr. 
Sullivan, you are right, you have the responsibility of 
protecting our President. You know, in a letter that I wrote to 
the Secretary of Homeland Security--which I believe should be 
more intimately involved in this issue as we go forward--I 
indicated my appreciation for the brave men and women that 
serve in the Secret Service, and I will never step back from 
that representation.
    I also acknowledge the fact that you have said there is no 
margin for error. I want to applaud you for the 1.2 million 
people that have come in securely, and I want to join you in 
recognizing that you staff-up, man-up and woman-up when you 
need to, but I want to join my colleagues and say this is a 
time to understand what happened and what kind of resources 
going forward.
    So let me say to you that my perspective is that this is a 
law enforcement issue, a criminal activity that could have 
generated into a horrific incident at a State Dinner in 
Washington, DC in the White House in what has been classified 
as the most powerful Nation in the world in the backdrop of a 
Mumbai incident that occurred a year almost to the day of the 
visit of the Prime Minister of the great country of India.
    So I would like to just show you how severe I think these 
circumstances are. We have seen these over and over again. 
Severe, absolutely severe, because the person standing there 
was not vetted, and to the report that you have supported to 
us, was not on any list. Severe. When we see a picture that we 
have seen over and over again on the--severe; violation and 
potential threat to the President and Vice President of the 
United States. Again, in another location altogether, in an 
uninvited circumstance, standing with the United States 
military. I am sure that they could take care of themselves, 
but severe. At the same time, the Prime Minister of the nation 
that suffered this terrorist act was there.
    So let me focus on why I believe this is a law enforcement 
issue. You may not be able to discuss a lot of it, but let me 
quickly go through my point.
    At 15th and Alexander Hamilton Place, was there a Secret 
Service personnel there?
    Mr. Sullivan. There was.
    Ms. Jackson Lee. Did that Secret Service personnel inquire 
of the Salahis--who I believe came, according to your report, 
to that checkpoint--were they invited guests?
    Mr. Sullivan. Those people presented themselves as being 
invited.
    Ms. Jackson Lee. Was there a discussion?
    Mr. Sullivan. There was, as far as I know.
    Ms. Jackson Lee. In your report it says they insisted they 
were invited, and were allowed to proceed to the second 
pedestrian checkpoint.
    Do you assume that if they insisted that they were invited, 
that they spoke to a Secret Service officer?
    Mr. Sullivan. At the first checkpoint they did talk to one 
of our people.
    Ms. Jackson Lee. There was dialogue and conversation.
    Mr. Sullivan. Correct.
    Ms. Jackson Lee. Did they, in that dialogue and 
conversation, again speak to a Federal officer?
    Mr. Sullivan. They did.
    Ms. Jackson Lee. With a Federal officer, are the actions of 
the individual speaking to a Federal officer covered by Federal 
law?
    Mr. Sullivan. They are.
    Ms. Jackson Lee. So let me proceed on the idea that in 18 
U.S. 1001 it says that anyone who proceeds to falsify, conceal, 
or cover up by any trick, scheme, or device is violating a 
Federal law. We can talk about the Secret Service, who you have 
mentioned that you had more than a faux pas, the lives of these 
individuals were threatened. But we cannot get away from the 
fact that the Salahis are playing with the attitudes and the 
trends and the dangers of what we live in.
    So I would like to offer into the record and ask you a 
question in particular, there is an e-mail that has the Salahis 
reporting that Senator Harry Reid and his wife, Kuma Gupta and 
her husband, and Bob Stevens and his wife will not be at the 
dinner. Can you tell me how they would have access to this kind 
of classified information? Is the White House list where people 
are not coming, is there a list printed saying these people 
will not show up?
    Mr. Sullivan. Congresswoman, I don't know where they got 
that information from.
    Ms. Jackson Lee. There is also an additional statute that 
suggests in 18 U.S.C. 1036 that says entry by false pretenses 
to any real property, whoever by any fraud or false pretense 
enters or attempts to enter. Were they on the list, to your 
knowledge?
    Mr. Sullivan. They were not on the list.
    Ms. Jackson Lee. Do you believe if they entered onto the 
premises, discussing this with the Secret Service--who made a 
mistake, more than what we would like--did they enter on false 
pretenses?
    Mr. Sullivan. Ma'am, as I said before, we are in the middle 
of a criminal investigation here. The U.S. Attorney's Office--
--
    Ms. Jackson Lee. I understand that you may not be able to 
answer. Did they enter with approval, in terms of being on a 
list, to your knowledge?
    Mr. Sullivan. Again, ma'am, they were not on the list. But 
it is our mistake because they weren't on the list and we let 
them through.
    Ms. Jackson Lee. They were not on the list, and therefore 
not vetted; is that your understanding?
    Mr. Sullivan. They were not vetted.
    Ms. Jackson Lee. Is the White House considered a Federal 
building?
    Mr. Sullivan. It is.
    Ms. Jackson Lee. Mr. Chairman, I just simply want to submit 
into the record four or five--I don't know if we are having a 
second round--but four or five of these e-mails that reflect 
the knowledge of the Salahis that they were not invited, and 
their misrepresentation in a very, very large and conspicuous 
way.
    Chairman Thompson. Without objection.
    [The information follows:]

      E-mails Submitted For The Record by Hon. Sheila Jackson Lee

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Jackson Lee. I yield back.
    Mr. Sullivan. Can I make one more comment to the 
Congresswoman? I feel I have to defend my boss here.
    Secretary Napolitano has been intimately involved with me 
on this investigation. We have been speaking daily regarding 
this. We spoke about a half hour before I came up here for this 
testimony.
    So I would not want to leave any indication nor have you 
under the impression that she has not been intimately involved 
with this. We have been talking daily about this issue.
    Ms. Jackson Lee. Thank you, Mr. Chairman. I look forward to 
meeting with Secretary Napolitano. I am sure she will meet with 
the committee.
    Chairman Thompson. The gentleman from Texas for 5 minutes, 
Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    I know there is an investigation underway and the U.S. 
Attorney's Office is looking at that. As a former Federal 
prosecutor, I know they will do a very thorough and diligent 
job in this case.
    Mr. Sullivan, you brief us on a monthly basis, an 
intelligence briefing, threat briefing. I don't need to 
emphasize to you the threat here. It is the first State Dinner. 
It has been pointed out the Prime Minister of India, who has 
also been a target, was at this State Dinner. India, which has 
been threatened by Pakistan, on the eve of the President giving 
his speech on Afghanistan, his policy dealing with Afghanistan 
and Pakistan, you have two major targets at the White House, 
and the idea that a couple could get in there without any--
without their names being on the list, without any sort of 
vetting, if you will, without their Social Security numbers 
being submitted in advance, is really astounding.
    Now, you were very candid in saying that established 
procedures were not followed, and I think that is very clear in 
this case. But how in the world could this couple get past the 
Secret Service without having their names on the list, without 
having their socials in advance, and get right up to the 
President of the United States?
    Mr. Sullivan. Sir, I have asked myself that question a 
thousand times over the last week. What we keep coming back to 
here is that procedures weren't followed. Again, what we have 
found is when we follow the procedures, when we go by the 
protocols we have, these type of situations don't occur.
    I would like to think that all these layers--and that is 
one thing we do, we realize when you put a plan together that 
things might not always go according to plan and that they 
might be imperfect. In this particular case, that is what 
happened. But I still do believe, because of all the 
countermeasures we have--which I would be more than happy to 
speak to you about in a closed session--I do believe that their 
safety was never in jeopardy.
    But again, do I like to see this? Do any of our people like 
to see this? Believe me, we are beating ourselves up over it. 
We do not like to see this. When we have the Prime Minister of 
India come in, we give him the highest level of security, we 
put our best people on his detail.
    Sir, I can tell you that I understand your concern, and I 
have the same concern, but I do think this is an aberration.
    Mr. McCaul. Is there a protocol where White House officials 
can wave a guest in, even if they are not on the list and the 
Social Security numbers and background checks have not been 
done?
    Mr. Sullivan. Again, sir, I would prefer not to get into 
our procedures on that. Every event is going to be different. 
But again, I would prefer not to get into that procedure.
    Mr. McCaul. You said human error happened, and certainly it 
looks like in the Secret Service there was human error. What I 
want to know is whether anybody from the White House intervened 
to allow access to these individuals?
    Mr. Sullivan. Congressman, this is our fault and our fault 
alone. There is no other people to blame here. You know, look 
at me and blame me. This is our fault.
    Mr. McCaul. Well, you are certainly doing the job that 
Secret Service is known to be doing and taking full 
responsibility, but I think that is an issue we need to look 
into.
    You mentioned this planning meeting that took place prior 
to this event. Were you at that meeting?
    Mr. Sullivan. I was not.
    Mr. McCaul. But the decision that came out of that meeting, 
was that the Social Secretary, it would not be necessary for 
her or her staff to be present with Secret Service?
    Mr. Sullivan. Sir, as I understand it, the agreement was 
that they would have people available in a roving capacity, and 
that we would accept that checkpoint, we would accept the 
invitation list.
    Mr. McCaul. But in this case, were they there?
    Mr. Sullivan. The White House staff was available, it was 
just a matter of our people either getting on the radio or 
picking up the phone and contacting them and asking them to 
come out to help resolve the issue.
    Mr. McCaul. But you say when Secret Service erred alone, 
does that mean that Secret Service let these people in without 
any sort of vetting process, and that the White House had no 
role in waving them in? Is that what you are telling us?
    Mr. Sullivan. That is what I am telling you, sir.
    Mr. McCaul. I find it very interesting. I will be very 
interested to see what the investigation, how that unfolds and 
what information comes out of that.
    I know, looking forward, the White House has admitted error 
in this memo by the White House Deputy Chief of Staff where he 
stated that in the future that somebody from the White House 
absolutely needs to be there present with the Secret Service; 
is that correct?
    Mr. Sullivan. Yes, sir.
    Mr. McCaul. So looking forward, and protecting the 
President of the United States and heads of states across the 
world, the White House employees, officials will be present 
with Secret Service as individuals come into the White House.
    Mr. Sullivan. That is correct.
    Mr. McCaul. Okay. I yield back.
    Chairman Thompson. Thank you very much.
    The gentleman from Texas, Mr. Cuellar, for 5 minutes.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Director Sullivan, I appreciate the history of the Secret 
Service, back since 1865. The mission has evolved from 
protective to now investigatory, and I appreciate all of that.
    Listening to what we have seen here today and from what we 
have read, my opinion is you have been a good soldier, you are 
a good soldier, you are taking full responsibility. In my 
opinion--and this is just my opinion--I think this 
responsibility should be shared, but again, you are being a 
good soldier, and I appreciate the work that you and the men 
and women do that are working for the Secret Service.
    Let me ask you this; we have talked about the White House 
memo that came out that they now will go and have somebody at a 
checkpoint; is that correct?
    Mr. Sullivan. Yes, sir.
    Mr. Cuellar. Let's assume that that particular checkpoint 
that has been in question, if somebody from the White House 
would have been there--and I understand somebody could have got 
on the phone, somebody dropped the ball by not getting on the 
phone and calling--let's assume that somebody from the White 
House would have been there at that time. What would have been 
the procedure to be followed by the Secret Service?
    Mr. Sullivan. The procedure would have been the same as if 
our person had called that person on the phone.
    Mr. Cuellar. The person is right next to the Secret 
Service.
    Mr. Sullivan. They would have both worked through this 
issue together.
    Mr. Cuellar. Who would have had the ultimate call on this 
one?
    Mr. Sullivan. Again, that is a very difficult thing to 
answer. It is a joint decision. Ultimately, when it comes to 
security, we have the ultimate call.
    Mr. Cuellar. Have you ever turned anybody down if the White 
House asks somebody to come in?
    Mr. Sullivan. Sir, I can't categorically----
    Mr. Cuellar. Can you remember one particular time?
    Mr. Sullivan. I cannot recall that, no.
    Mr. Cuellar. Okay. Do you have the necessary resources and 
funds to effectively investigate issues like this? Do you have 
the personnel and resources available to do all this work?
    Mr. Sullivan. Sir, I believe we do. Again, when it comes to 
doing our protection, that is our No. 1 priority. We work with 
the Department, we work with Capitol Hill to ensure that we 
have the necessary funding. I don't think you are going to talk 
to any agency head in Washington, DC who is not going to tell 
you they need more money. But again, we do our best, we 
prioritize. Working through the Department and working with 
Capitol Hill, we do everything we can to ensure that we have 
the necessary funding.
    Mr. Cuellar. You prioritize with whatever resources we give 
you; is that correct?
    Mr. Sullivan. That is correct.
    Mr. Cuellar. All right. What obstacles currently exist that 
would have hindered the Secret Service from accomplishing their 
protective services? Was there anything in particular that 
night that hindered you?
    Mr. Sullivan. No, sir.
    Mr. Cuellar. I will go back to my question again; if the 
White House would have had their persons standing there, what 
would you have done at that time?
    Mr. Sullivan. We both would have looked at the list, we 
both would have determined that they weren't on the list, and I 
believe we would have worked through it together to determine 
if in fact that person should have been invited.
    Mr. Cuellar. Again, with all due respect, I think you are 
being a good soldier. I still feel that the work that your men 
and women do under the circumstances, I think you all have done 
a good job. You are being a good soldier by taking full 
responsibility, but I still think that if somebody would have 
been there at that time with you, right next, not picking up 
the phone, I think we would have had a different result at that 
time. But again, I want to thank you and your men and women for 
doing a great job.
    Mr. Sullivan. Thank you, Congressman.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The gentleman from Pennsylvania for 5 minutes, Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Thank you, Director Sullivan, for being here. I truly 
appreciate your service and the service of those who serve in 
your agency.
    Listening to my friends, Congressman Cuellar and 
Congressman McCaul, I am very impressed by your willingness to 
take responsibility for this incident, but I never, ever 
expected to see--we always expect the Secret Service to take a 
bullet for the President. We don't expect the Secret Service to 
take a bullet for the President's staff. I think we have to 
have a discussion here about that issue, that clearly there are 
issues of collaboration and coordination that were not up to 
the high expectations that I know you have for your agency and 
that we all have. So it is critical that we hear from the 
Social Office on this.
    But my main question, Director Sullivan, is this: There has 
been much discussion about the planning meeting and who 
recommended that no representative from the Social Office be at 
the initial checkpoints. Given your 26 years of experience, 
would you have made such a recommendation?
    Mr. Sullivan. You know, sir, I really don't want to debate 
whether that was the right decision or the wrong decision. I 
think the fact is that, regardless of whether it was right or 
wrong, we agreed to it. When we agreed to it, we took the 
responsibility for that list, and we took responsibility for 
allowing that person into the event.
    My opinion is, to look back and to say what we should have 
done or could have done does not take away from the fact that 
we allowed somebody into the White House who shouldn't have 
come in. We had a protocol for that particular night based upon 
our decision that if anybody came who wasn't on the list, that 
that person should have called for help and we didn't do it.
    So I guess we could debate for hours whether or not I would 
have made that decision or if we made the right decision, but 
the bottom line is we made a decision and we have to live with 
it.
    Mr. Dent. I appreciate the candor of your answer. Also, I 
understand, too, that since you would not have made that 
recommendation, I certainly hope that when the White House 
Social Office receives recommendations from you about the 
security of the President of the United States, they would take 
those recommendation very seriously, like they perhaps should 
have in this particular instance.
    The media has reported that Desiree Rogers, the White House 
Social Secretary, was listed as a guest for the event and 
hosting her own table. Do you know if this was in fact the 
case?
    Mr. Sullivan. I don't know anything about that, sir.
    Mr. Dent. If the Secret Service had a question as to 
whether or not a very important person was in fact authorized 
to attend the event, would Ms. Rogers be a logical person to 
contact in a case like that?
    Mr. Sullivan. Again, sir, I would not know. I would think 
that--there are several people working within her office, and I 
do know for this particular event we had contacts from within 
her office that we were dealing with. I am not sure in fact if 
it was her directly or other people who work for her.
    Mr. Dent. Again, throughout your time as Director of the 
Secret Service, were representatives from the White House staff 
stationed at checkpoints for these types of events in the past, 
and would such a practice be--well, I guess you have answered 
it--beneficial in the future?--you said yes. That is your 
position.
    A few other things, too, that I want to run by you. When 
reviewing the Office of the Inspector General's Secret Service 
Inaugural security I found an interesting statement by the IG 
that I would just like to share with you.
    In reviewing allegations that individuals without tickets 
were able to attend the breakfast with Vice President-elect 
Biden, a Secret Service protectee, the OIG found that the 
allegations were true, but did not consider them a breach of 
security.
    On page 15 of that report it states, ``Because the Secret 
Service relies on physical screening and monitoring, not 
invitations, to provide security, there were no security lapses 
at the Biden breakfast.''
    Can you explain why the Secret Service considers a ticket a 
crowd control mechanism and not a security mechanism?
    Mr. Sullivan. I think it all depends on how those tickets 
are--and again, I am not sure of the conditions and how those 
tickets were distributed. Many times tickets are mailed out 
unilaterally to hundreds of people. I am not exactly sure, sir, 
how those tickets were distributed. I would be more than happy 
to look into that and get into it with you, but I guess I am 
not familiar with that.
    Mr. Dent. Okay. You have already stated that essentially a 
layer of White House security was breached, but there was an 
agent near the President when he was in the receiving line and 
met the Salahis, comparable to what one might expect when the 
President is shaking hands along the rope line; is that fair?
    Mr. Sullivan. I wouldn't say as close as they are with the 
rope line, but again, if you watch our men and women on these 
type of photo lines, people have to pass by an agent on one 
end, there are other agents on the other end, and we are 
monitoring these people, we are watching these people. You 
never see our people watching those we protect, but we are 
watching the people that are approaching the people we protect.
    Mr. Dent. Thank you for your service, and I yield back.
    Chairman Thompson. The gentleman's time has expired.
    The gentleman from Pennsylvania for 5 minutes, Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman.
    Mr. Sullivan, you understand that this is a hearing that 
should never have had to take place, and I commend you for your 
courage to stand in the breach here today. I am just at a loss 
to understand why the White House didn't send somebody to 
discuss this as well to give us a better sense; certainly not a 
profile in courage, certainly for a White House that touts 
transparency, we would expect somebody to be here.
    You know, in a very bizarre way, we owe some sort of a 
thanks to this pathologically egomaniacal couple that has tried 
to, not just at the White House, but in many other places, try 
and do this sort of thing. We owe them this sort of weird 
thanks for exposing some of these issues.
    What is going on? What has happened with the guards who let 
this happen at the checkpoints, the initial checkpoints? Are 
they on administrative leave? Can you tell me what is going on 
there?
    Mr. Sullivan. Yes, sir, they are on administrative leave 
with pay.
    Mr. Carney. How often does the Secret Service exercise, 
practice, go through their routines for these sorts of things?
    Mr. Sullivan. For every event we do that.
    Mr. Carney. For every event? But do you do it as a matter 
of course or just your regular training?
    Mr. Sullivan. For training? I would say that our level of 
training for these type of events probably isn't where it 
should be. Over the past year, we have done, I think, a 
tremendous job in improving our training. We do training out at 
our Rowley Training Center in Beltsville, Maryland. We look at 
these type of issues, we put scenarios together for these type 
of scenarios. We are not where we need to be, but I see us 
improving every day as far as getting more people out to 
training.
    Uniform Division, we have been authorized at 1,419 for 
Uniform Division now going back to 2003. We have never been 
able to get to that number. Right now we are at about 1,350. We 
are creeping in on that number. I am hoping with more people 
that we will achieve the 1,419, which will allow us to do more 
training.
    Right now we are working with Congress to get a bill passed 
which I believe will help with retention and help with 
recruitment. It is the Uniform Division Modernization Act. It 
has already been passed through the Senate, and it is going 
through the House right now, but I believe that will be a big 
help. But we do put training procedures together for these type 
of issues.
    I am not going to tell you that we are getting it done as 
much as I would like to, but I do think as we grow the Uniform 
Division that we are going to see more training.
    But I would also tell you this one thing that we learned 
from this particular event, managerial oversight is very 
important. I believe that we had the appropriate level of 
managerial oversight on this night. However, for these type of 
events we are going to have even more managerial oversight 
there. We have also come up with a resolution help desk which 
will be staffed by a commanding officer from our Uniform 
Division, as well as a senior level person from the White House 
staff. We have had something comparable to that before, but it 
was more of a mobile type of thing, where this will be 
stationary, everybody is going to know where it is.
    But again, I go back to the fact that I am not sure that 
any level of training, any level of funding, any number of 
people could have prevented what happened the other night. This 
was just an err in judgment, it was a mistake.
    Mr. Carney. Well, to that end, then how much discretion 
does a uniform guard have?
    Mr. Sullivan. We give all of our officers, all of our 
agents, we give them a lot of discretion. A lot goes into our 
hiring. Our people go through, when they initially come on, 
they go through about 7 months of training. I am very confident 
in our people. We do give them discretion. There are a lot of 
things that happen out there that they have to make an on-the-
spot decision. They don't have the luxury of being able to pick 
up the phone and ask somebody for advice, and we do give them a 
lot of discretion. In this particular case, we did have time to 
make the right decision and we just didn't do it.
    Mr. Carney. I am very concerned by the revelation that Ms. 
Jackson Lee presented with this e-mail of knowing who was and 
was not going to be at this event. I think the revelation of 
that e-mail requires us to do a very thorough investigation 
into who knew what, when and why, and how they got that 
information. I mean, that was extremely frightening to me, that 
apparently Mr. Salahi sent this e-mail, and how he was able to 
come up with the guest list, and not who was going to be there 
but who was not going to be there, and apparently why. That is 
exceptionally troubling. That is a clear security breach that 
really needs to be understood. It may not be Secret Service's--
in this case, it is probably not Secret Service's fault, I 
don't think it is, but there is a security breach, and people 
need to understand the protocol of security here. When we err 
in this country, we have to err on the side of National 
security.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you. The gentleman's time has 
expired.
    That information has been entered into the record, and it 
is our expectation that Director Sullivan will get back with us 
once he has had an opportunity to investigate the e-mail and 
the source and what have you.
    We have four votes on the floor. The expectation is to 
recess and reconvene around 12:15. The committee is recessed.
    [Recess.]
    Chairman Thompson. We would like to reconvene the recessed 
hearing. The next person who is in attendance is Mrs. Miller 
from Michigan for 5 minutes.
    Mrs. Miller. Thank you very much, Mr. Chairman. Director 
Sullivan, we certainly appreciate your attendance today and 
your service to the Nation as well, and many of the questions 
have already been asked and I know that you have answered many 
of them, that an investigation is under review and that you 
cannot answer some of those, and I am appreciative and 
cognizant of why that is the case.
    But I would say just a general observation. In some ways, I 
think perhaps in a very strange way, this incident may have a 
silver lining because it does point out systems failures and I 
am also of the mind that there is shared responsibility here, 
not only with the Selective Service, but certainly in the case 
of the White House and their Social Secretary and other 
administrative officials that perhaps should have been 
assisting that evening. I know this has already been brought 
up, but I also would want to make an observation about this e-
mail, which I think is almost the most troubling of all of 
them. The e-mail coming from Tareq Salahi to Michelle Jones 
basically saying I know for a fact these people are unable to 
attend the State Dinner. Then they mention Senator Harry Reid 
and his wife and they mention two other couples. But not only 
did they mention the individuals not coming, that they are 
aware they are not going to be coming to the State Dinner, they 
also say why they are not coming. In the case of Senator Harry 
Reid, the Senator majority leader, they have gone home early 
for Thanksgiving. This other couple, Kuma Gupta and husband, 
unable to travel to the District of Columbia tomorrow. This 
other individual, Bob Stevens, top brass from Lockheed Martin, 
I cannot believe that the Secret Service would be releasing 
that kind of information. It would seem to me that only an 
inside source would have access to that kind of information, 
and I find it extremely troubling. I would ask you to respond 
to that, Mr. Sullivan, if you could.
    Mr. Sullivan. Thank you, Congresswoman. First of all, maybe 
there is a silver lining here. Again, I am with anybody that 
wishes this had never occurred. However, we are going to use it 
to learn and to make our organization even better than it was 
before.
    As far as those e-mails, I am not familiar with that. I 
hadn't seen that until it was brought up this morning. I 
understand your concern with that. I don't know where that 
information came from. I am hopeful during the course of our 
investigation we can determine where that came from. I would 
agree with you to have that information out there and not know 
where it came from, it is troubling.
    Mrs. Miller. It is very troubling and I was certain that 
would be your answer, that you didn't know about that 
information or how it got out there because you don't have to 
comment on this. This is my personal observation that it had to 
come from, as I said, an inside source, somebody within the 
wiring diagram of the White House I imagine. The Social 
Secretary's Office would have had that kind of information. 
That is why I think it is even more troubling that no one from 
the White House, particularly the Social Secretary, was able to 
testify. The White House went on record here, saying 
specifically staff here don't go to testify in front of 
Congress, which I thought was an interesting comment, 
particularly when Speaker Pelosi in the case of Congress trying 
to get information from the Bush White House said the White 
House, no matter who it is, cannot violate the Constitution of 
not being accountable to the Congress, and in fact the Speaker 
and other Members of the Judiciary, Chairman, et cetera, led 
the charge to force a number of Bush White House officials to 
testify and they were held in contempt, former Counsel Harriet 
Miers and Josh Bolten, et cetera, for not coming to testify in 
front of the Congress.
    So I also find that, Mr. Chairman, very troubling. I want 
to point that out. I do think this is an administration that 
ran on the--certainly they talked about transparency and how 
they would be above and more transparent than any other 
administration. Right off the bat when we asked to have the 
Social Secretary to come to testify before a committee, a 
Congressional committee, in that case they say that it is a 
separation of powers, which I think is a far, far stretch.
    I would also mention the Social Secretary--you mentioned, 
Director Sullivan, that some of your staff--that as your 
investigation is proceeding--and we won't go into the details 
of whom--but that you have put on administrative leave with pay 
several members of the Selective Service and I am wondering 
whether or not you are aware if the White House Social 
Secretary has been put on administrative leave with pay or if 
any other members from the White House wiring diagram, any 
administrative staff there have been put on administrative 
leave with pay?
    Mr. Sullivan. I know nothing about that, Congresswoman. All 
I would tell you is that the reason we have taken the action 
that I have taken is because we did not follow procedure.
    Mrs. Miller. I appreciate that. My time is running out. Let 
me just ask you. Just to be clear, the Secret Service does not 
perform any political work on the part of those they protect; 
is that correct?
    Mr. Sullivan. That is correct. We are a nonpolitical 
organization.
    Mrs. Miller. It would seem to me in the case of a State 
Dinner when you have perhaps political people that have some 
political affiliation with the President, et cetera, that it 
would be helpful to have the White House Social Secretary, 
other appointees of the administration, et cetera, to be 
available at the various checkpoints. Otherwise it would seem 
to me there is outsourcing of the political part of the job to 
the Secret Service. I think that that is--I think that is a 
mistake.
    I would also ask you do you--I appreciate the time, Mr. 
Chairman. Thank you very much.
    Chairman Thompson. The gentlelady's time has expired. The 
gentlelady from California, Ms. Richardson, for 5 minutes.
    Ms. Richardson. Thank you, Mr. Chairman. Mr. Sullivan, let 
me first start off by saying that I appreciate you coming here, 
for you facing the music as I would say you could have easily 
hid behind, you know, we are currently doing an investigation, 
we can't talk about it, but you came to answer the questions 
here and I respect that, and I want to say thank you.
    I also want to say to all of those who serve with you and 
under you, I think it is important that we remember that you 
not only do a job, but you also make a commitment that if you 
have to, you may have to choose to lose your life to protect 
any of us who happen to be there. So I think it is important we 
keep it in perspective. I agree that this is severe. I agree 
that I am concerned. But what I do want to do is to send a 
message to those who are serving that the appreciation is not 
there, and that I think this is fixable and that is what I hope 
that we will do.
    My questions are, it is my understanding and it is 
basically from press reports that I have seen that it was quite 
busy that night, there may not have been enough equipment 
systems set up. How many do you normally set up for a dinner 
such as this of having guests of almost 400 people?
    Mr. Sullivan. I am sorry.
    Ms. Richardson. Magnetometers.
    Mr. Sullivan. Clearly a couple of things happened. The 
doors opened a little bit late that night. There was a crowd 
build-up. As I understand it, we had one magnetometer operating 
that night. I believe that if we had had two we would have been 
able to clear people through a little bit faster. However, that 
had nothing to do with what happened at the original 
checkpoint.
    Ms. Richardson. At the checkpoint, where is the 
magnetometer?
    Mr. Sullivan. This would have been a great distance away 
from there. The initial checkpoint, Congresswoman, is at 15th 
and Alexander Hamilton, which is right adjacent to the Treasury 
there. Then the magnetometers would be just inside the East 
Wing.
    Ms. Richardson. So had a line built up of people waiting? 
How long was the line at this particular checkpoint where there 
was----
    Mr. Sullivan. We had two different things going on that 
evening. We had I believe about 35 to 40 vehicles that were 
going to be dropping people off in the driveway there right by 
the East Wing, and then we had the rest of the people arriving 
by foot. I am told that there was a backup of people. I am not 
exactly sure what the line was. But there was a line there.
    Ms. Richardson. Then the White House support staff that was 
available to you to contact by phone or grab or whatever, how 
close were they to this particular checkpoint? Were they within 
5, 10 feet? Was it someone that they physically had to call? 
Where were these people?
    Mr. Sullivan. As I understand it, they were up by the East 
Wing. So they would have been up at the entry way into the East 
Wing.
    Ms. Richardson. Wouldn't that also be past where these 
machines were and the lines and everything else was going on?
    Mr. Sullivan. I am not sure if they were behind the 
magnetometers or if they were in front of them. I know they 
were right in the area. Again they were available.
    Ms. Richardson. I have got less than 2 minutes. So we have 
to go fast. You said that you feel that no one else breached 
the system. How if the officer allowed someone to pass, what 
makes you think that they just didn't allow some other people 
to pass?
    Mr. Sullivan. That is one issue that I wanted us to put a 
significant amount of review into. So far our review has 
indicated that no other people were able to get in. I would be 
more than happy to speak to that with you in a classified 
setting. I think we can resolve that issue for you.
    Ms. Richardson. Did the Salahis come in with other 
equipment, camera equipment, and so on, to your knowledge?
    Mr. Sullivan. As far as I know, I think a cell phone. I 
think that was about the extent of what they had with them.
    Ms. Richardson. According to one of reports that I read, 
not only were their names not on the list, but the only 
identification that they had was a passport. Would that 
normally have been something to raise a red flag of, hey, your 
name is not on the list and you are using a passport for 
identification given the nature of who all was present?
    Mr. Sullivan. As I understand it, they showed a passport 
for identification. I am not sure if any other identification 
was shown or not.
    Ms. Richardson. My question is, by showing a passport, 
would that have been something normally that maybe the officer 
would have thought, okay, your name is not on the list and you 
are showing a passport?
    Mr. Sullivan. We would accept the passport.
    Ms. Richardson. Okay. My last question kind of builds upon 
Congresswoman Sheila Jackson Lee's question. If a person 
misrepresents and says that their name is on the list and they 
document you and they want to seek entry into the building, is 
that illegal?
    Mr. Sullivan. You can be charged for lying to a Federal 
agent.
    Ms. Richardson. Are we pursuing any criminal charges in 
this case?
    Mr. Sullivan. Yes, ma'am, we do have an on-going 
investigation. As I mentioned in my statement, we do have an 
on-going criminal investigation.
    Ms. Richardson. Well, I would like to see some sort of 
clarification I think for the public. It is important that we 
set what is appropriate standards. Even with the on-going 
investigation, Chairman Thompson, maybe you can work with him 
that--I think we need some sort of communication that people 
aren't just going to be able to go off scot-free. Because I 
would have a serious wish for that.
    Mr. Sullivan. Please, just so I am clear, we do have as I 
mentioned in my statement, we do have an on-going criminal 
investigation.
    Ms. Richardson. Okay. Thank you, sir. Thank you for all of 
you for what you do.
    Mr. Sullivan. Thank you very much for your comments.
    Chairman Thompson. Thank you very much. The gentlelady from 
New York, Ms. Clarke, for 5 minutes.
    Ms. Clarke. Thank you very much, Mr. Chairman. Let me just 
add my voice to those who commend you, Director Sullivan, for 
being so forthright and for taking the heat. I would just like 
to share with you that I received numerous calls this weekend 
that was nothing short of outrage from my constituents, and 
certainly I am outraged as well that these breaches occur, but 
we are getting beyond that. So my question really has to do now 
with some other protocols. I know we are going to go into it in 
a secured environment. But are you familiar with President 
Viktor Yushchenko of the Ukraine?
    Mr. Sullivan. Yes, ma'am.
    Ms. Clarke. The President of the Ukraine was poisoned at a 
dinner and he carried--whoever poisoned him utilized a chemical 
agent known as dioxin. I am just concerned that we have opened 
up a scenario here that we need to be reassured that we have 
closed every possible loop of harm or danger to our President. 
I am sure an agent like that is something that is detected 
through a magnetometer and I am sure there are other types of 
agents similar that cannot be detected through normal physical 
means. So I look forward to that conversation that we will have 
about how we would address something like that. I also wanted 
to ask you because you mentioned that you felt that this 
particular instance was an aberration. It probably was for the 
White House. But were you aware that the Salahis attended 
without invitation in September the Congressional Black Caucus 
dinner, that they entered the premises through the kitchen, and 
we knew and it was widely publicized that the President and the 
First Lady was going to be there?
    This seems to be a pattern with these people, and I am very 
concerned because again they mixed and mingled with the crowd 
in the same way at that event that they did at the State 
Dinner.
    Can you speak to that, Director Sullivan?
    Mr. Sullivan. I read reports of that and we are looking 
into that very issue as well.
    Ms. Clarke. Well, I understand there are a whole lot of 
photographs of this same couple and it is again my 
understanding and we will probably have to get the facts of it. 
But them entering through a kitchen facility, that raises again 
the flag of contamination, the types of harmful elements that 
can be dispersed in an environment where our President and his 
guests are present. I want to thank you again for being 
forthright in your presentation to us today. But I really 
believe that the level of consciousness that our agents have, 
that the White House has about safety and security has to be 
taken to a whole new level. It is our hope that there will not 
be a scenario of this magnitude ever again and that we will use 
this as unfortunately a very rough teachable moment to really 
get things right.
    There are a lot of folks who need to question themselves 
around this particular incident, and I hope that we are 
questioning ourselves and that we are closing these loopholes 
so that something like this can never happen again.
    I would just close by saying, Mr. Chairman, that I find it 
ironic that the Salahis were able to get into the White House 
with such ease when I was basically detained by Secret Service 
just trying to get into Invesco Stadium to nominate my 
President. So there seems to be some standards about who is 
credible in their description of whom they are and where they 
belong and who does not.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much. The gentlelady from 
Arizona, Mrs. Kirkpatrick, for 5 minutes.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman. Mr. Sullivan, 
thank you for taking responsibility and having the courage to 
show up today to answer our questions. I appreciate that. From 
my standpoint, the most important question of that evening is 
was there at any point on the evening of November 24 that the 
President was in danger?
    Mr. Sullivan. As I stated earlier, Congresswoman, in my 
opinion, no, there was not.
    Mrs. Kirkpatrick. Thank you. Now, I also appreciate your 
willingness to look beyond that incident and really see if 
there are other vulnerabilities within the Department, and I 
was a little concerned with the statement to Ms. Richardson 
regarding the entry at 15th and Alexander Hamilton where only 
ID is checked and weapons are really not checked at the 
magnetometers until they are at the East Wing. I just wondered 
if that is something that you consider a vulnerability. Maybe 
weapons should be checked before they get that close to the 
White House. That is my understanding of that procedure, 
correct?
    Mr. Sullivan. For a State Dinner, that is our procedure. 
For other types of events, it will happen further off site. 
Again, it is inexcusable that these people were let through. 
They never should have been let through with their name being 
on that checklist. But depending on what the type of event is 
will drive where we are going to do our screening.
    Mrs. Kirkpatrick. Thank you. I just want to mention one 
other thing. I am a former prosecutor and over the years I have 
observed that we expect superior enforcement from our law 
enforcement and yet we don't always give them the resources 
they need. I am not going to put you on the spot today to ask 
you if you feel like you have adequate resources, but I want 
you to know I am sensitive to that. Mr. Chairman, I think that 
it is also our committee's responsibility and oversight to make 
sure that the Secret Service has the resources they need to do 
the superior job that we expect of them. So I thank you again.
    Mr. Chairman, I just want to make one remark in that I am 
disappointed that the Salahis did not appear today and I think 
perhaps it is because they were on the invited guest list. So 
thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much. I think Director 
Sullivan can affirm the fact that in every instance from a 
committee perspective, we always ask whether or not he has the 
resources to do his job. When the budget comes, it is a budget 
from whatever administration is in charge and his answer in 
most instances is I can get the job done with the money. Not to 
put words in your mouth, Director Sullivan.
    Mr. Sullivan. Mr. Chairman, my words are that I work with 
the Secretary. I work with the Hill to ensure that we get the 
appropriate funding. I have also said that I don't know of one 
agency head who doesn't say they need more money. There is a 
process that I do my best to follow. I work for the Secretary 
of Homeland Security, and I do my best to work through that 
process.
    Mrs. Kirkpatrick. Thank you, Mr. Sullivan. Thank you, Mr. 
Chairman.
    Mr. Sullivan. I do appreciate your support, sir.
    Chairman Thompson. Yes. The gentleman from Kansas City for 
5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman. Mr. Sullivan, as the 
head of the Secret Service, you are perhaps the less visible of 
the most significant agencies in the Federal Government. So, 
you know, you are Secret Service but you certainly have not 
been a secret for the last few days, your picture and your 
position.
    Unlike a lot of people, I am very, very happy that this 
incident occurred. I think it was one of the best things that 
could have happened to us, because I think it has your agency 
now, along with others, more engaged in looking at ways in 
which we can prevent things from occurring. So sometimes 
something negative can actually be a positive. I think this is 
one of those instances.
    I only have one question, but it may lead to some others. I 
have become a little concerned over the fact that the Secret 
Service is engaged in searching for missing and exploited 
children, and while I think that falls outside of what I have 
always believed the Secret Service was doing, the Secret 
Service is now expected to expand its role to include mortgage 
fraud.
    What is leading us to take what has traditionally been the 
responsibility of the FDIC and the SEC and probably to some 
degree the IRS and place it with the Secret Service?
    Mr. Sullivan. To your point, sir--well, first of all, I 
cannot say that I am happy that this occurred.
    Mr. Cleaver. I am sure you are not.
    Mr. Sullivan. But I do agree with you that I think there 
will be some good that comes from this.
    As you know, we are a dual mission organization about 144 
years old. When we were first founded, we were founded to 
combat counterfeit currency. We did not pick up protection 
responsibility until about 50 years after our creation. I 
believe the dual mission of our organization is very important. 
We have about 3,500 agents, about 2,200 of those agents are out 
in the field and they are assigned to investigative 
responsibility. But they do support our protective mission. It 
is my belief that what our agents learn as investigators make 
them that much better in their protection assignments, 
evaluating people, dealing with people, dealing with various 
types of situations.
    The dual mission, or the investigative mission of our job 
revolves around financial crimes. The majority of those 
financial crimes are access to vice or credit card fraud, 
identity theft and as it relates to financial crimes and cyber, 
cyber-related issues.
    We do work--we do do some work for missing and exploited 
children and a lot of that is because of the capabilities we 
have. That is not full-time for every agent. We have a small 
number of agents who are assigned to that. We believe that our 
job is to make an impact on the community and we believe that 
this is a good thing for us to do. It does not take away from 
our other mission.
    Again, I want to be clear, I have said this in writing, I 
have said this in numerous meetings I have had with our 
employees, make no doubt, our No. 1 priority is to protect the 
President. Every employee in our organization realizes that it 
would be a disaster for this country, for the world if anything 
were to happen to the President. So nothing will take priority 
over our protection of the President and the other people we 
protect.
    But I do believe we still have enough resources to work on 
these other investigative issues that we do, and I do think it 
makes us a better organization.
    Mr. Cleaver. I agree with everything you said. I guess 
there is a proposal now to give the Secret Service $20 million 
more to work in mortgage fraud and I guess I am looking for 
some consistency. Why not to give the $20 million to the FBI, 
which also investigates mortgage fraud? It seems to me that we 
are duplicating services within different agencies. I mean, if 
the FBI is doing mortgage fraud investigation and you are doing 
it, and to some degree the SEC, FDIC, Treasury, why can't we 
have one agency that does one particular service like 
Protective Service and why do we go into all these other areas? 
It seems to me that we are diluting our effectiveness if we 
have four or five different agencies doing the same thing.
    Mr. Sullivan. No, sir. We have jurisdiction for bank fraud. 
One of the things we are seeing is that this mortgage fraud is 
dovetailing into some of the other financial crimes that we are 
working. I would say, sir, that I am not trying to compete with 
the FBI when it comes to doing mortgage fraud investigations. 
They have far more assets and more people dedicated to that 
than we do. But I still believe that we are making a 
contribution there.
    Mr. Cleaver. I do, too. Perhaps I am inarticulate in trying 
to get at where I am going. I mean, we fund the FBI to do 
mortgage fraud and then we fund two other agencies to do the 
same thing. Then we fund, if this proposal is responded to by 
Congress, which it probably will be, then your agency is doing 
mortgage fraud. I don't understand why we can't have an agency 
doing the mortgage fraud. I mean, how do we do it? Do you and 
the FBI Director say, okay, we are going to do Missouri and you 
do Kansas or you do Las Vegas and we will do the District of 
Columbia?
    Mr. Sullivan. Sir, what I would say to that would be that I 
do believe there is plenty of work out there for everybody. As 
I said, protection is our No. 1 priority. If I believed this 
initiative and us working mortgage fraud was taking away from 
our ability to take care of our No. 1 priority, I wouldn't do 
it. Sir, I would be more than happy to bring up our Assistant 
Director of Investigations who is in charge of this initiative 
and give you a briefing on that because I do want to make sure 
that you are comfortable with why we are working it and how 
that is not having an impact on our other duties.
    Chairman Thompson. The gentleman's time has expired. The 
gentleman from New Jersey, Mr. Pascrell, for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman. Mr. Sullivan, the 
highest compliment that I can pay the Secret Service is that 
every member of your agency that I have met has been the 
highest quality and professional as you have been. I am very 
proud of the agency. But like the Congress, we make mistakes, 
you make mistakes.
    Wouldn't you say that what we are talking about today is an 
institutional problem?
    Mr. Sullivan. I don't believe it is an institutional 
problem. I believe it is--as I said before, I think that it is 
an isolated incident and it is due to--I don't believe that it 
is due to any systemic problem. I believe it is due just to 
poor judgment.
    Mr. Pascrell. You know that in the beginning of this year 
or after the inauguration, a newspaper reported that several 
security vulnerabilities were observed by some guests at the 
Inauguration of President-elect Obama. They reported that 
guests screened at an off-site location stated that their 
secure buses could have been infiltrated because there was no 
mechanism to prevent unscreened persons, et cetera, et cetera. 
A report was given to the agency after that. Can I assume, can 
everybody on this panel assume that those were addressed and 
solutions implemented?
    Mr. Sullivan. First of all, sir, I believe that that IG 
report did not substantiate those claims. As I read the 
report--it was reported, as I read it, that we did have 
appropriate security procedures in that--sir, I will tell you 
that working with the Inspector General, we flew out to 
California to interview some of the people who made that report 
to the paper. We confronted that and we spoke to all the people 
who made that claim. One thing we had found was that many of 
the people that were out there working on our behalf were not 
recognizable to these people. We had agents out there and they 
weren't in uniform. They were in overcoat, they had on a hat, 
they had on a scarf. A lot of these people who thought we had 
no presence out there were mistaken. In fact, we did have 
people out there.
    Now one of the things we did learn is that for a future 
situation like that, it would be better to change the location 
of the magnetometers. However--and we have instituted that. 
However, I will tell you that at no time was there any threat 
to anybody being able to get on a bus because we did in fact 
have our people there, and I believe that was proven by that 
report.
    Mr. Pascrell. I am interested in not only threats to the 
President, that is a high priority, but I am interested in the 
threats to your folks and the people who are at the event. This 
is not reality TV. Apparently these two people think that this 
is a continuation of the popular TV programs dealing with 
reality. After a while, you can't separate TV--reality TV from 
reality. You know, Americans have a little problem right now. 
We are trying to distinguish between truth and fiction and 
myth. What bothers me is that many people are looking at this 
hearing and thinking it is about some sensational incident when 
what it is really about is I think a failure that has plagued 
many institutions. A larger Department has yet to integrate all 
of its disparate security components. I mean, this is a big 
Homeland Security Department.
    The committee has talked time and time again about the 
documented problems at the Secret Service, this committee, 
including low morale among some of the uniformed officers, and 
it has fallen on deaf years I think because I am sad to say we 
still have a pre-9/11 mindset. We think we are invincible right 
up to the point where something happens. The real ugly truth is 
we don't even think about the Secret Service because we figure 
they have it all covered. That is until something happens, and 
then we start asking questions.
    So I want to be supportive of you tomorrow as well as 
today. It just bothers me much that it has now been almost 
exactly 7 years to the date that we created the Department and 
we are still reactionary in our approach to threats instead of 
being proactive, and this incident is a perfect example.
    Director Sullivan, you have been the Director of the Secret 
Service for more than 3\1/2\ years I believe.
    Mr. Sullivan. Yes, sir.
    Mr. Pascrell. You started out as a special agent in 1983?
    Mr. Sullivan. 1983. Something.
    Mr. Pascrell. I want to ask you, do you agree that we need 
real institutional change at Secret Service right now?
    Mr. Sullivan. By that, how do you define that, sir?
    Mr. Pascrell. Well, do we need changes? Because we are not 
only talking about this one incident. We are talking about have 
you had full cooperation in the 3\1/2\ years to bring about the 
changes that you see are important to make your agency more 
effective and more efficient? Have you received that aid?
    We don't know much about Secret Service until we go there 
and we see all of the great work that you do. I am wondering 
now that you are here, is there something else we should be 
doing to help you become a more effective agency?
    Mr. Sullivan. Sir, I believe that we can always do better 
and we are always looking to do better.
    Mr. Pascrell. Get me to the real answer.
    Mr. Sullivan. I will tell you that we are working with the 
Department. I would say that when we went into the Department 
of Homeland Security, I think people were asking why are you 
going into the Department of Homeland Security? They are about 
transportation, immigration, and borders. I believe that we are 
in the right department and we are getting the right support 
from this Department. Our people have a really challenging job.
    We made a mistake here, and it is an unforgivable and 
indefensible mistake that we have made. But I don't believe 
that has anything to do with any of the institutional 
procedures or any of those other issues. I believe this is just 
a breakdown in judgment. We do some great things every day and 
if we had hearings for every great thing that we did, there 
wouldn't be enough hours in the day to hear about what our 
people are doing. Our people are not looking for a pat on the 
back. They are not looking for anyone to praise them. We are 
not looking to bring a lot of attention to ourselves. Our men 
and women are out there working every single day, 24 hours a 
day, away from home, traveling. I think our people do a great 
job, and I could not be more proud of them. I believe this is 
just a mistake. I do not believe that it is indicative of any 
institutional problem.
    Mr. Pascrell. Thank you. Mr. Chairman, can I just make one 
more clarifying point?
    Chairman Thompson. Yes.
    Mr. Pascrell. I am glad that Mr. Sullivan is before us 
because I think it helps us to distinguish when someone goes 
onto the campus at the White House, it is different than going 
into the White House. I mean, there are questions that you were 
being asked before, as if somebody was--we have--it is the same 
thing. You have got to get onto the campus first. In order to 
get onto the campus, you have got to go through security. In 
order to get into the White House, you go through another set 
of securities. I am glad you brought it out and clarified that, 
because we are not talking about going directly into the White 
House as soon as you step out of the car.
    Thank you.
    Chairman Thompson. Thank you. The gentleman's time has 
expired. The gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman, for this hearing. I think it is very timely, and I 
compliment you for holding it as expeditiously as possible. I 
thank you, Mr. Director, for appearing.
    Mr. Director, as you know, and I am confident that you 
agree, we are a country of laws, not people, in the sense that 
we don't allow people to on a case-by-case basis change the 
law. We consistently follow the law. I would like to compliment 
you for the job that you have done, the Secret Service has 
done. I would also like to compliment you on the job that you 
have done today because you have indicated that there are 
certain things you cannot talk about while an investigation is 
pending. I think that you should be complimented for this.
    I don't think that people should be prejudged. I think that 
a thorough investigation should take place before you come to 
your conclusions, and my assumption is that this is what you 
are doing. You want a thorough investigation before you 
document your conclusions. Is this a fair assumption?
    Mr. Sullivan. Yes, sir.
    Mr. Green. All right. Thank you.
    Now, let me tell you what I think the American people want. 
The American people want what they perceive to be as 
interlopers, the Salahis, they want them treated the same way 
they would be treated if they showed up without an invitation 
and somehow managed to get into an affair of this magnitude. 
That is what they want. But they want you to be fair. They want 
you to investigate. But if you find that they have breached the 
law, they want them prosecuted. That is what the American 
people want.
    Now, there is some consternation in the minds of people 
that emanates from the notion that this is a real significant 
embarrassment for the Secret Service, and the fear does exist 
in the minds of some that because of the level and magnitude of 
the embarrassment there may not be the level of prosecution, 
lawful prosecution after an investigation that this 
circumstance would merit if this were John Q. Citizen.
    So my question to you, Mr. Director, is this: If the facts 
show that there has been a breach of the law, that there has 
been in some ways some deceit that was unlawful, will there be 
a vigorous prosecution of the Salahis?
    Mr. Sullivan. Sir, as you stated, it is an embarrassment. 
However, I am not going to let that embarrassment get in the 
way of doing the right thing. From the very beginning, I have 
confronted this issue, I have tried not to--done my best not to 
duck this issue and stand up for what we did wrong here. If 
laws were broken, it doesn't matter who broke them. We are 
going to pursue whatever option we have. As I had mentioned 
before, we currently have an investigation on-going and we are 
not going to leave out any option here.
    Mr. Green. The next thing that I think the American people 
want is this: They want not only the Salahis probably punished, 
but if there are other persons who conspired or who worked in 
some way in a fashion that was antithetical to the law and 
protocol, they want those persons to be properly punished, too.
    To the extent that your investigation reveals that there 
were others involved in this who may have breached the law, 
will you assure us that all persons associated with this who 
may have breached the law in your opinion, after a thorough 
investigation, that they will all be properly prosecuted?
    Mr. Sullivan. Absolutely.
    Mr. Green. My final comment is this, sir: I don't think 
that you should have your head bowed. I think you should 
maintain the posture of having a top-notch organization that 
does its job with a great degree of dignity and pride because 
things happen and it is unfortunate. But out of adversity there 
is opportunity, and I think you should see this as an 
opportunity to modify, clarify, and continue to do the 
outstanding job that the Secret Service is known to do. I 
compliment you for what you have done and I believe that you 
will make sure that the proper persons after a thorough 
investigation, if the law merits, that you will ensure that 
they will be prosecuted.
    I thank you, sir.
    Mr. Sullivan. Thank you, sir. I appreciate your comments. 
Thank you.
    Mr. Green. Thank you.
    Chairman Thompson. Thank you very much. I recognize the 
Ranking Member.
    Mr. King. Thank you, Mr. Chairman. Mr. Chairman, I ask 
unanimous consent to introduce into the record the December 2, 
2009 memorandum from Jim Messina at the White House, Deputy 
Chief of Staff to the White House.
    Chairman Thompson. Without objection.
    [The information follows:]

          Memo Submitted For The Record by Hon. Peter T. King
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. King. I believe the Chairman has these also. These are 
the e-mails that were made available to me by the Salahis' 
attorneys. I would like them to be made part of the record.
    Having said that, I don't want any implication from anyone 
that I am accepting their version of events. I think this--to 
complete the record, we should have the e-mails in the record. 
I ask unanimous consent on that.
    Chairman Thompson. Without objection.
    [The information follows:]

         E-mails Submitted For The Record by Hon. Peter T. King

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. King. Also, Mr. Chairman, as a courtesy, I would like 
to advise you that I will be moving to have a subpoena issued 
for Desiree Rogers to give you the adequate notice required on 
that. But we feel very strongly on this side. Hopefully it can 
be bipartisan. We do intend to request a subpoena be issued for 
Desiree Rogers of the White House staff.
    Chairman Thompson. Thank you. The gentlelady from Texas.
    Ms. Jackson Lee. I inquire of the gentleman from New York 
just a question. Do you accept the fact that this is a law 
enforcement issue?
    Mr. King. I accept the fact that this is a jointly shared 
responsibility historically and to get the full picture of what 
went on we have to----
    Ms. Jackson Lee. But are you representing that the Social 
Secretary Office is engaged in law enforcement activities?
    Mr. King. I am strongly stating that historically and 
continually the Social Secretary's Office has worked with the 
Secret Service at these type of events. If they had been there 
at this event, this would not have occurred.
    Ms. Jackson Lee. If you would continue to yield, I would 
suggest to you that any Social Secretary responsibility is 
ministerial or administrative, that the jurisdiction of this 
committee addresses the question of law enforcement. The Secret 
Service is before us and the perpetrators are not, or I don't 
know that. The Chairman might be calling those names at this 
point. But in any event, the perpetrators are not here. So the 
two parties that are directly involved with access, vetting, 
and perpetration are the ones that need to be before a Homeland 
Security Committee.
    I respect the gentleman's inquiry and request, because 
obviously he has that privilege to do so. But I would argue 
vigorously that muddying the waters with a ministerial or 
administrative actor, if you will, is not going to get the 
facts that our colleagues have asked for us to get. I, Mr. 
Chairman, for one, am interested in finding out where the 
perpetrators are at this point in time, those who I believe 
intentionally entered into the White House falsely and then, of 
course, if we have to hear back from Mr. Sullivan in a 
classified manner, I think the questions of our dear friend 
from New York will be answered.
    I raise a question about the propriety of a subpoena for 
the Social Secretary, who is in an administrative, 
ministerial----
    Chairman Thompson. Just let me----
    Ms. Jackson Lee. I yield back, Mr. Chairman.
    Chairman Thompson. Let me just indicate that even the 
discussion is out of order at this point because we are not 
able to do it.
    Mr. King. Sir, if I could just respond to the gentlelady, 
though.
    Chairman Thompson. Well, you made a comment and she 
responded.
    Mr. King. She raised new issues that I had not raised. It 
is my strong belief, Mr. Chairman, that all White House 
employees have a responsibility for the security of the 
President of the United States. Historically it has been a 
shared responsibility. For some reason at this dinner, unique 
among all others in the last 20 years, they were not there. I 
believe very strongly that especially in view of the fact that 
the White House staff, the White House Deputy Chief of Staff 
has issued an official memorandum saying that the White House 
operated improperly, that we should inquire as to why they made 
that decision and what the procedure is going to be in the 
future because it is an integral part of the security.
    Chairman Thompson. We differ on that. We will go forward. 
The Director has already indicated that security at the White 
House is the responsibility of Secret Service. There is no 
question about that. Any ancillary individual does not remove 
the primary responsibility from the Secret Service. That is 
where we are trying to keep the hearing focused.
    But I would like to thank Director Sullivan for his 
valuable public testimony and the Members for their questions. 
Given that some of the information that we are seeking, 
Director Sullivan, is protected or classified, it is my 
expectation that the committee will move into a closed, 
Executive Session at the conclusion of a second panel.
    Before being dismissed from the public session of this 
hearing, I would remind Director Sullivan that the Members of 
the committee may have additional questions for you, and we 
will ask you to respond expeditiously in writing to those 
questions. For the Members of the committee, in very short 
order, we will move into Executive Session and clear the room 
and be able to ask some of the questions that we are not 
prepared to ask and get answers from. I ask the Clerk to 
prepare the witness table for the second panel of witnesses.
    Chairman Thompson. We would like to reconvene the second 
panel. On November 30, 2009, the committee invited Tareq and 
Michaele Salahi to testify at today's hearing. We sent the 
invitation to secure their first-hand accounts of the Secret 
Service's protocol on the evening of November 24.
    We need this testimony to ascertain the extent of the 
security breakdowns from the perspective of the individuals who 
were active participants in those breakdowns. Half of that 
picture was just provided by Director Sullivan. We still need 
the other half of the picture from those private citizens. The 
committee needs to understand all the facts.
    For the record, we did engage their attorneys to facilitate 
this testimony and to communicate that Rule 11 of the House 
rules grants this committee the authority to subpoena 
testimony. The Salahis chose to forego participation in today's 
proceedings with the full knowledge that the committee could 
compel their testimony through subpoena.
    To that end, I am directing staff to prepare subpoenas for 
the Salahis, and this committee will consider them next week. 
Once the machinery of the Congressional subpoena authority is 
activated, if the Salahis continue to rebuff this committee's 
oversight request, they could be subject to contempts of 
Congress.
    My door remains open. I am hopeful they will be as willing 
to talk to Congress as they have been to talk to the media, and 
I move forward with Executive Session for the purpose of 
talking with Director Sullivan.
    Mr. King. Mr. Chairman, just to preserve the record, I 
would just ask also to say that since Desiree Washington was 
also invited at the same time as the Salahis is not here--
Desiree Rogers was invited at the same time that we invited the 
Salahis. I would make a similar note that they are not here. We 
are going to proceed with the request for subpoena for Desiree 
Rogers.
    Chairman Thompson. The focus of this hearing today in 
response to Ranking Member King is security. For this reason, 
the committee invited the Director of the Secret Service and 
the Salahis, the individuals that breached the security. 
Pursuant to committee Rule 6, whenever the committee holds an 
open hearing, Mr. King as a Ranking Member is generally 
entitled to identify a minority witness to testify at that 
hearing.
    For this hearing, Mr. King identified Desiree Rogers, the 
First Lady's Social Secretary. An invitation was then issued at 
Mr. King's request. Ms. Rogers, whose role on the Executive 
staff does not encompass security, declined to testify today.
    On the question of subpoena, I believe there is a clear 
distinction here between Ms. Rogers and the Salahis. Ms. Rogers 
is not a central figure in this security matter insomuch as her 
role on the Executive staff does not encompass security. The 
Salahis in contrast have critical first-hand knowledge of the 
security breakdowns at the November 24 State Dinner.
    Moreover, the importance of this inquiry necessitates swift 
action, especially in light of the series of upcoming White 
House holiday season events. It simply would not be prudent to 
expend committee resources and time on engaging in a protracted 
fight with the White House on this matter when the testimony 
sought is not central to the question at issue.
    Mr. King. Mr. Chairman, if I could be heard on that. I 
don't believe that you would have sent the letter to the White 
House requesting Desiree Rogers if you did not believe that she 
was an appropriate witness. I did make the request and you 
agreed with it and concurred and sent a personal letter to Ms. 
Rogers asking for her testimony.
    [The information follows:]

    Letter Submitted for the Record by Ranking Member Peter T. King

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. King. Also the fact that the Deputy Chief of Staff, Mr. 
Messina, has sent a memo, an official memo to all the White 
House staff saying that the Social Secretary's Office will have 
to be part of security in the future, shows that the White 
House itself believes that Desiree Rogers is part of the 
security apparatus of the White House, and I think we are 
taking a very narrow, limited view of the jurisdiction of our 
committee if we do not believe that accepting the White House's 
own version of who is responsible for security if we don't ask 
them and then follow up by subpoena and demand that they 
testify on this issue.
    Chairman Thompson. It is clear that the Ranking Member is 
correct. Out of personal courtesy, I generally will allow you 
to call whatever witness you would like to and I have supported 
you in the past. So it is not precedent-setting in any way. But 
in this instance, this is an issue of security and security is 
the responsibility of the Secret Service.
    With that, we will move forward with clearing the room for 
Executive Session.
    Mr. Pascrell. Mr. Chairman----
    Chairman Thompson. We can do it in Executive Session. We 
can do it in Executive Session.
    [Whereupon, at 1:15 p.m., the committee proceeded in 
Executive Session, and subsequently adjourned the hearing at 
1:32 p.m.]


   THE UNITED STATES SECRET SERVICE AND PRESIDENTIAL PROTECTION: AN 
                    EXAMINATION OF A SYSTEM FAILURE
                                PART II

                              ----------                              


                      Wednesday, January 20, 2010

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Norton, Jackson Lee, 
Cuellar, Carney, Richardson, Kirkpatrick, Pascrell, Cleaver, 
Himes, Kilroy, Titus, King, Souder, Lungren, Rogers, McCaul, 
Dent, Bilirakis, Broun, Miller, Olson, and Austria.
    Chairman Thompson. The Committee on Homeland Security will 
come to order. The committee is meeting today for the second 
day of the hearing, ``The United States Secret Service and 
Presidential Protection: An Examination of a System Failure.''
    Good morning. I want to thank the witnesses for complying 
with the subpoena and appearing today. Today marks the third 
time this committee has met to discuss security breaches at the 
White House State Dinner. At our first hearing Secret Service 
Director Mark Sullivan testified. He admitted that the Secret 
Service bore the sole responsibility for safeguarding the White 
House grounds and took responsibility for his agency's failure. 
The Salahis were invited to appear at that hearing but they did 
not appear, so the committee met again.
    At that meeting we voted to issue a subpoena to compel the 
Salahis to appear. Countless media reports identified them as 
the couple who attended the White House State Dinner without 
appearing on the invited guest list. In multiple public 
appearances the Salahis have said that they were able to enter 
the White House without triggering the suspicion of Secret 
Service officers stationed at checkpoints.
    This committee, charged with overseeing homeland security, 
has an important interest in understanding how two ordinary 
people were able to defeat this security system. Yet despite 
wide exposure in the media the Salahis steadfastly refused to 
speak informally or formally with this committee. Although they 
have decided to appear today, we have been told that they will 
invoke their Fifth Amendment protections. We respect the 
Constitution and therefore we must respect their decision.
    As a substitute, their lawyer has offered to appear and 
speak for them. However, those offers are not satisfactory. 
These lawyers were not at the State Dinner and have no 
firsthand knowledge of the facts. At best their statements 
could only be secondhand representations. We believe the 
Salahis have relevant factual information. We look forward to 
discovering those facts when the current legal situation 
resolves itself. But regardless of what fate awaits the 
Salahis, this committee must continue its oversight of the 
Secret Service. The safety of the President must be taken 
seriously.
    I look forward to the testimony presented here today. The 
Chair now recognizes the Ranking Member of the full committee, 
the gentleman from New York, Mr. King, for an opening 
statement.
    Mr. King. Thank you, Mr. Chairman. As you know from the 
outset, you and I both agree that this was a matter that had to 
be investigated. It involved the security of the President of 
the United States, Vice President of the United States, and 
obviously the Prime Minister of India, and it had consequences, 
potential consequences, for future events at the White House 
and indeed for the future security of the President.
    I thought the first day's hearing where Director Sullivan 
came to testify was very significant. I give him credit for 
coming here and telling the Secret Service part of what 
unfolded. Unfortunately, though, the story is very incomplete 
when obviously the Salahis here, they are not going to testify, 
but even more than that I believe the fact that Desiree Rogers, 
the White House still refuses to provide her as a witness, 
refuses to give us any information whatsoever on this and 
continues to stonewall. I respectfully disagree with you, Mr. 
Chairman, that because the Secret Service accepts its 
responsibility that therefore implicitly there was no 
responsibility on the part of the White House.
    The fact is it was the White House, under Desiree Rogers, 
who changed the format. We went back 15, 20 years. We know of 
no other event at the White House where the Secret Service was 
told not to be at the gates--I am sorry--where the Secret 
Service was told that the White House protocol office would not 
be at the gate with them, would not be there to do a back-up 
check, and it was done for whatever reason, we don't know. But 
obviously Desiree Rogers and others were able to prevail upon 
the Secret Service to change a long-standing policy, a policy 
which as we see by changing that policy could have had terrible 
consequences.
    I don't know what the White House is trying to hide. I 
don't know why they won't allow Desiree Rogers to come up here. 
While I don't see any need for the Salahis to be in Executive 
Session, as I and others on this side have said, we would be 
certainly willing to have Desiree Rogers testify in Executive 
Session if that is what it takes to find out what happened.
    Now, we do know that the Deputy White House Chief of Staff, 
Jim Messina, did send out a memo to the White House reversing 
the policy which had been started by Desiree Rogers. So again--
and also those of us who attended the Christmas event at the 
White House this year saw that Desiree Rogers and her people 
were everywhere that night. So obviously something went wrong, 
and it originated with the White House, not with the Secret 
Service and not with the Salahis for that matter. But it 
originated with the White House. For them not to cooperate with 
our committee on a matter involving the Secret Service to me is 
just wrong, and it sets a wrong climate, a wrong tone, and it 
is inexcusable. There are a number of other instances we can go 
into in other hearings where I believe also an iron curtain has 
come down. But certainly they are stonewalling in this 
instance.
    The Salahis are here today. They have said they are not 
going to testify. I know an offer was made to have, I believe, 
to have them testify in Executive Session. Mr. Chairman, to be 
honest with you, I would have objected to going into Executive 
Session. I don't see anything to hide. There is no reason why--
they are not going to have state information or state secrets 
or confidential methods. I think whatever they do say should be 
in an open hearing.
    I would, however, certainly agree to have the Executive 
Session with Desiree Rogers or Rahm Emanuel or Jim Messina or 
anyone the White House wants to send here to explain what they 
did, why they did it, what was the basis for it and did they 
ask the Secret Service to import as the security implications 
of that why after 15 or 20 years of one policy was it suddenly 
changed for this?
    So that to me, Mr. Chairman, is the underlying issue which 
is not being addressed. Today is going to be a bit of a show. I 
have no intention of asking any questions. I know we can ask 
questions and they will take the Fifth Amendment. But to me 
that just continues the charade that we are as of now still 
trying to find out what happened. So long as Desiree Rogers is 
not here we are not trying to find out what happened. We are 
not making the effort that we as a committee which has 
oversight over the Secret Service should be attempting to do, 
oversight over the security for the President of the United 
States and the Vice President of the United States. We are 
remiss in our obligations. So long as we refuse to insist that 
Desiree Rogers be here, so long as the White House continues to 
stonewall, then we are not doing our job, they are not doing 
their job, and I believe it has severe implications not just 
what happened to the White House, but as far as our on-going 
relationship with the White House. To me it is a breach of 
trust, it implies a refusal to cooperate, an insistence on 
controlling all the information, keeping it all to themselves, 
whether it is on this or other terror-related issues. The fact 
is this White House I believe has brought down an iron curtain. 
It is wrong, we should not allow it, we should be the ones 
defending the prerogatives of our committee in speaking out 
against what the White House has done here and continues to do.
    So we have the Salahis here today. You and I have met with 
their lawyer. I hope if I ever get in trouble I have him as a 
lawyer. But the fact is that I see nothing more to be gained 
here today other than going through the motions of asking some 
initial questions and them taking the Fifth Amendment. Then I 
just hope though that this committee and the public doesn't 
believe that we have effectively completed our investigation 
because we have not. Until Desiree Rogers comes up here this 
investigation is open and there are serious questions that 
remain unanswered, and I put that at the door of the White 
House.
    I yield back.
    Chairman Thompson. Other Members of the committee are 
reminded that under the committee rules opening statements may 
be submitted for the record.
    [The statement of Hon. Kirkpatrick follows:]
               Prepared Statement of Hon. Ann Kirkpatrick
    Let me express an opinion since you both are clearly not going to 
respond to any questions. This Congress has real challenges to take 
on--getting folks back to work, better protecting Americans against 
serious threats and leading the international response to the disaster 
in Haiti. I am personally angry that instead of dealing with these 
issues, this committee has to waste its time and the people's time to 
ask you questions you are unwilling to answer and let you distract us 
from our real work. And all of this because you want to be celebrities. 
You should be ashamed of yourselves.
    Mr. and Mrs. Salahi, for the past 2 months, you have disputed the 
claim that you were not actually invited to the White House and have 
argued that you actually had an invitation. Yet, the story that we have 
heard reported by the media indicates that on the day of the event, you 
were not certain about whether you were an invited guest. Was there any 
point during the day of November 24, that you were unsure about the 
status of your invitation to the White House?
  <bullet> If so, at what time did this occur and what made you 
        question the status of your invitation?
  <bullet> What was it that brought you to the conclusion that you were 
        invited?

    Chairman Thompson. I now welcome our witnesses today. As 
you know, under 18 U.S.C. Section 1621 it is a felony to give 
perjurious testimony before a Congressional committee. Mr. 
Tareq and Mrs. Michaele Salahi are private citizens from the 
Commonwealth of Virginia and attended the White House State 
Dinner on November 24. Though they were not issued invitations 
they are here to provide their account of the events of that 
night.
    We would like to welcome both of you to this committee. I 
now ask that you summarize your joint statement for 5 minutes.

    STATEMENT OF MICHAELE AND TAREQ SALAHI, PRIVATE CITIZENS

    Mr. Salahi. Thank you, Mr. Chairman and honorable 
committee. I do have an opening statement for you.
    To the honorable Members of the Committee on Homeland 
Security: Prior to being contacted by anyone from the committee 
to invite us to speak at your December hearing we asked that 
our attorneys reach out to the committee, meet with various 
staff members and provide them with key information to assist 
the committee in their review of relevant homeland security 
issues. We understand that our attorneys met with Chairman 
Thompson's staff, as well as with Representative King and his 
staff, and provided them with phone records, e-mails, and other 
relevant documentary evidence. We have continued to provide 
relevant documentary evidence and be as helpful as we can to 
the important security concerns you are investigating.
    We also understand the committee received our attorneys' 
letter and our attached declaration indicating that, based on 
advice of counsel, we intended to assert our constitutional 
right to remain silent and decline to answer any questions if 
we were to be subpoenaed to appear before the committee.
    We find it unfortunate that the committee nonetheless 
required us to appear in person to invoke our Fifth Amendment 
rights under the United States Constitution to remain silent 
even though it is against the ethical rules of the D.C. Bar to 
do so. Indeed, Congressman Waxman chastised this exact conduct 
in another hearing.
    We reiterate that, on advice of counsel, we respectfully 
invoke our right to remain silent, and we will decline to 
answer any questions surrounding the circumstances around the 
events of November 24, 2009.
    We appreciate the offer from Representative Thompson's 
staff to present ourselves for questioning in Executive Session 
and out of the public spectrum. We understand that to do so 
would afford us no legal protection and it would not have been 
fair to accept the offer knowing we would still invoke our 
right to remain silent.
    Our counsel offered last week to the committee an 
opportunity to provide further information and make a full 
attorney proffer to the full committee or any interested 
Members of all relevant information. That offer was declined by 
Chairman Thompson's staff.
    We again offer the opportunity for our counsel to meet with 
the Members of the committee and assist in this review of 
important homeland security issues.
    Finally, my wife and I say we are strong supporters of the 
men and women in uniform both here and abroad, we have great 
respect for the Presidency, the men and women of the United 
States Secret Service, and they have a tradition of excellence 
in their missions, and nothing that transpired on November 24 
should take away from the extraordinary services the United 
States Secret Service performs on a daily basis.
    Thank you very much.
    [The joint statement of Mr. and Mrs. Salahi follows:]
            Prepared Statement of Michaele and Tareq Salahi
                            January 20, 2010
    Honorable Members of the Committee on Homeland Security: Prior to 
being contacted by anyone from the committee to invite us to speak at 
your December hearing, we asked that our attorneys reach out to the 
committee, meet with various staff members and provide them with key 
information to assist the committee in their review of relevant 
Homeland Security issues. We understand that our attorneys met with 
Chairman's Thompson's staff as well as with Representative King and his 
staff and provided them phone records, e-mails, and other relevant 
documentary evidence. We have continued to provide relevant documentary 
evidence and be as helpful as we can to the important security concerns 
you are investigating.
    We also understand the committee received our attorneys' letter and 
our attached declaration indicating that, based on advice of counsel, 
we intended to assert our constitutional right to remain silent and 
decline to answer any questions if we were to be subpoenaed to appear 
before the committee.
    We find it unfortunate that the committee nonetheless required us 
to appear in person to invoke our Fifth Amendment right under the 
United States Constitution to remain silent, even though it is against 
the Ethical Rules of the D.C. Bar to do so. Indeed Congressman Waxman 
chastised this exact conduct in another hearing.
    We reiterate that, on advice of counsel, we respectfully invoke our 
right to remain silent and will decline to answer any questions 
surrounding the circumstances around the events of November 24, 2009.
    We appreciate the offer from Representative Thompson's staff to 
present ourselves for questioning in Executive Session and out of the 
public spectrum. We understand that, to do so would afford us no legal 
protection and it would not have been fair to accept the offer knowing 
we would still invoke our right to remain silent.
    Our counsel offered last week to the committee an opportunity to 
provide further information and make a full attorney proffer to the 
full committee or any interested Members of all relevant information 
but that offer was declined by Chairman Thompson's staff.
    We again offer the opportunity for our counsel to meet with the 
Members of the committee and assist in this review of important 
homeland security issues.
    Finally, we are strong supporters of the men and women in uniform, 
both here and abroad. The men and women of the United States Secret 
Service have a tradition of excellence in both their investigative and 
protective missions and nothing that transpired on November 24 should 
take away from the extraordinary service the United States Secret 
Service performs on a daily basis.
    Thank you.

    Chairman Thompson. Thank you very much for your testimony. 
I remind each Member that he or she will have 5 minutes to 
question the panel. I will now recognize myself for the first 
set of questions. This is to either one of you, Mr. or Mrs. 
Salahi.
    Did you attend the White House State Dinner held on 
November 24, 2009, as part of a reality TV stunt?
    Mr. Salahi. Mr. Chairman, I am under a nondisclosure 
agreement and should not discuss matters related to the 
television matter.
    Chairman Thompson. Well, that is not the answer. Let me 
give you another chance to----
    Mr. Salahi. Mr. Chairman, then on advice of counsel I 
respectfully assert my right to remain silent and decline to 
answer your question.
    Chairman Thompson. You have that absolute right. Did you 
receive an invitation in the mail to attend the White House 
State Dinner?
    Mr. Salahi. Mr. Chairman, on advice of counsel I 
respectfully assert my right to remain silent and decline to 
answer your question.
    Chairman Thompson. Can you describe for the committee your 
interaction with the Secret Service officer at each checkpoint 
and how you walked from the street to the White House?
    Mr. Salahi. Mr. Chairman, on advice of counsel I 
respectfully assert my right to remain silent and decline to 
answer your question.
    Chairman Thompson. Were you on the Secret Service officer's 
security list at the first checkpoint to enter the White House 
grounds?
    Mr. Salahi. On advice of counsel I respectfully assert my 
right to remain silent and decline to answer your question.
    Chairman Thompson. Did the officer at the first checkpoint 
verify your names on the security list?
    Mr. Salahi. Mr. Chairman, on advice of counsel I 
respectfully assert my right to remain silent and decline to 
answer your questions.
    Chairman Thompson. What form of identification did you give 
the Secret Service officer for verification?
    Mr. Salahi. On advice of counsel I respectfully assert my 
right to remain silent and decline to answer your questions.
    Chairman Thompson. Did the officer ask you probing 
questions about your biographical information, such as your 
full name, Social Security numbers, date of birth, and 
citizenship?
    Mr. Salahi. On advice of counsel I respectfully assert my 
right to remain silent and decline to answer your questions.
    Chairman Thompson. Thank you very much. It is clear that 
you are absolutely within your right to assert your 
constitutional rights to do so.
    I will now yield 5 minutes to the gentleman from New York, 
the Ranking Member.
    Mr. King. Mr. Chairman, I see no need to ask any further 
questions. I will ask if any Members on my side want to take 
advantage of my time.
    I yield to the gentleman from Indiana.
    Mr. Souder. I would just like to echo our Ranking Member's 
earlier comments. I have questions about who created the list, 
how do you change the list, why weren't they on the list, who 
deals with that. I can't ask the questions of the people who 
made the decisions. I think today's procedure is a charade.
    Mr. King. Will the gentleman yield back?
    Mr. Souder. Yes.
    Mr. King. I yield to the gentleman from California.
    Mr. Lungren. Mr. Chairman, I perfectly understand your 
statement that our witnesses are well within their rights to 
cite their constitutional rights, and that is true. In normal 
circumstances I would object to us even calling them here to 
have them actually do it personally. But this is an unusual 
circumstance in which we are talking about the security of the 
President of the United States. As he said just last week, we 
are in a war. Because we are in a war we have to take our 
responsibilities seriously. That includes the White House, that 
includes the Secret Service, and that includes everybody in the 
White House, including the Social Secretary. It is almost as if 
we have given the Social Secretary greater protection than key 
advisers to the President on policy matters.
    But I agree with your decision to call them forward because 
of the unique circumstances that we are talking about. This 
goes to the question of protecting the President of the United 
States. With all due respect to our witnesses you have the very 
right that you asserted here. But to have engaged in conduct 
which undercuts the seriousness of our effort to protect our 
President and protect vital elements of this Government as some 
sort of reality show or personal peek, or whatever you did, is 
an extraordinary affront to the seriousness of the issues that 
are before us today.
    You say in your last statement that you have great respect 
for the men and women of the United States Secret Service. You 
did not show that. You say that you are strong supporters of 
men and women in uniform, both here and abroad. They put their 
lives on the line every single day to protect us against any 
threat to this Nation, and for people to make a joke of it, to 
think it is not serious, is an affront to those individuals.
    So you have your right to claim protection under the 
Constitution of the United States, but you have shown 
effrontery here to take the name of men and women in uniform 
who are protecting this Nation and suggest that somehow what 
you do provides support for them.
    I was going to sit here and remain silent until I heard 
that last paragraph of your statement. But to suggest that 
somehow what you are doing shows support for our men and women 
is an abomination. The Constitution protects fools. The 
Constitution protects stupidity. The Constitution protects 
errant thought. Thank God it does.
    Thank you. I will yield back.
    Mr. King. Anybody else request time? The gentleman from 
Pennsylvania.
    Mr. Dent. Thank you, Mr. Chairman, and Mr. Ranking Member 
for yielding. I sat here a few weeks ago, I guess it was in 
December, when I saw Director Sullivan stand here and basically 
accept responsibility for everything that happened on that 
evening. At the time I said I expect the Secret Service to take 
a bullet for the President, I don't expect the Secret Service 
to take a bullet for the President's staff. I concur with 
everything that Mr. Lungren just said, and I think it is 
unfortunate that we are here today under these circumstances 
and that a good man like Director Sullivan, whose agency made a 
mistake, you know has had to suffer so much public humiliation 
and embarrassment over this event, and that is all because of 
your actions on that day. I wasn't going to say anything 
either, but the fact that Director Sullivan had to take all 
that grief from us and from so much of the public I think is 
unfortunate, and I hold you responsible for it, and I yield 
back.
    Mr. King. Mr. Chairman, I yield back.
    Chairman Thompson. Thank you. The gentleman's time has 
expired. The gentlelady from the District of Columbia, Ms. 
Norton, for 5 minutes.
    Ms. Norton. I thank you, Mr. Chairman. I thank you for 
going forward with your constitutional duty during an 
investigation of homeland security. I do want to say that there 
are two constitutional provisions involved in this hearing. One 
is the constitutional provision known as separation of powers, 
where the President does not and endlessly did not, has not 
endlessly on most occasions had his personal staff come to the 
Congress. Yet there is yet another provision, one that I 
respect profoundly. That is the Fifth Amendment, a precious 
Bill of Rights amendment.
    I do want to say, Mr. Chairman, that no one has a right to 
invoke the Fifth Amendment by proxy through their lawyer or by 
press release or in secret. So what you did, Mr. Chairman, you 
were duty-bound to do. This couple is being investigated by 
Federal authorities on criminal counts, including the U.S. 
Attorney for the District of Columbia. Therefore, they have 
every right to invoke their Fifth Amendment rights not to 
incriminate themselves. I want to respect that right and I ask 
no questions of them.
    Chairman Thompson. Thank you very much. The gentleman from 
Indiana, Mr. Souder, for 5 minutes.
    Mr. Souder. No questions.
    Chairman Thompson. Thank you. The gentlelady from Texas, 
Ms. Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I might 
add my appreciation as well for your upholding your duty as the 
Chairman of the Homeland Security Committee. Over the last 
couple of months we can see that the focus of the Nation, 
beyond personal economic concerns, is to ensure the security of 
the homeland. Over the last couple of months this committee and 
the crisis of homeland security has been on the people's mind. 
From the incident that involved, tragically, a military captain 
in Fort Hood, Texas to the incident that occurred on Christmas 
Day, we know that the security of a homeland is not a joke.
    To the Salahis let me say in all respect the security of 
the President of the United States is not a joke. Your actions 
or alleged actions on that fateful night made a mockery of this 
country, a mockery of our security, a mockery of your 
commitment to this Nation, and a mockery to any representation 
that you are patriots or love this country. I am incensed, not 
of your personal dignity and humanity, for I will never 
challenge that, but for individuals to be so reckless as to 
believe they can enter onto Federal facilities, property of the 
United States, hosting a dignitary from a foreign nation of 
whom we owe an obligation to secure, the Vice President of the 
United States, and the President of the United States with 
reckless disregard for the perception and the reality of what 
would be seen as a breach in security for terrorists of all 
walks of life, to be able to make the assessment that I can do 
it, too. I am saddened, I am disappointed, and I am outraged, 
and I would ask you to check your patriotism and to find out 
why you had to do something of that level.
    With that in mind, I do respect your constitutional rights. 
I respect them because I respect this Nation. I also respect 
the rights and responsibilities of this Congress and this 
committee. So sadly I will ask the question that both of you 
can answer. You had a duty to inform the Secret Service officer 
that you were not an officially invited guest. You dressed the 
part with the intent of attending a State Dinner, you did not 
receive an official invite, your backgrounds were not checked 
by the Secret Service, your names did not appear on the guest 
list and your request for an invitation from Michelle Jones was 
denied and rebuffed. Can you tell me what more did you need in 
order to understand that you were not invited?
    Mr. Salahi. On the advice of counsel I respectfully assert 
my right to remain silent and decline to answer your question.
    Ms. Jackson Lee. My understanding is that after being told 
that you would not receive an official invite you began 
plotting to get into the State Dinner, you began to discuss a 
scheme which included dressing up and pretending to be guests. 
This is not the first time, as I understand it, that you can be 
considered party crashers. This time you provided materially 
false information to a Government agent, Secret Service 
officer, who bore the responsibility of protecting the safety 
of the President of the United States and his guests. I respect 
the fact that you respect the Secret Service. My question: You 
did this to appease your own goals. Did you falsely provide 
information to Secret Service agents who were asking your 
credentials as you entered the White House?
    Mr. Salahi. On the advice of counsel I respectfully assert 
my right to remain silent and decline to answer your question.
    Ms. Jackson Lee. You knowingly misrepresented your status 
as invited guests. In fact you tricked the Secret Service 
officer into believing you were a guest of the President. 
Gaining access to the event under false pretenses makes you 
trespassers, as it was in furtherance of your initial crime of 
giving false statements and/or tricking a Government agent. 
Your behavior was wanton and egregious. After scheming your way 
into the event you shamelessly proceeded to socialize with the 
President, Vice President, and various invited guests, then 
brazenly posted photographs of your poor and ill-conceived 
behavior on your Facebook page for the entire world to see. 
Your actions could have seriously endangered the safety and the 
life of the President of the United States, Vice President of 
the United States, and the visiting dignitary.
    My question to you is did you have any consideration for 
the breach of security that you were engaged in at that time?
    Mr. Salahi. On the advice of counsel I respectfully assert 
my right to remain silent and decline to answer your answer.
    Ms. Jackson Lee. To my colleagues, as I respect their 
rights, let me offer to say that there are two criminal actions 
under 18 U.S.C., one, the intentional misrepresentation to a 
Federal agent which under the present allegation suggests 
occurred, and the intentional trespass on Federal real 
property, which apparently it seems to be.
    To the Salahis we are pleased that you are here today. I 
don't believe that it is a mockery or that it is without 
purpose. I am saddened that we have to say to the American 
public that there are those who are not concerned about the 
security of the homeland.
    I thank you, Mr. Chairman, and I yield back.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentleman from Alabama for 5 minutes, Mr. 
Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. I would like to yield 
my time to the gentleman from Texas, Mr. McCaul.
    Mr. McCaul. I thank the gentleman from Alabama.
    This was the first White House State Dinner of this 
administration with a dignitary, head of state from India, who 
obviously is a target, neighboring to Pakistan where the 
terrorists are, with the President of the United States who we 
know is a target as well. This is a very serious matter in your 
advancing this reality TV show agenda and exposing at the same 
time a vulnerability in our security and in the White House. 
While I appreciate the two of you showing up here today and 
exercising your constitutional rights, I think it is also 
important that we examine the White House's role in this and 
what role the Social Secretary played or didn't play in 
allowing you access into the White House to get right up to the 
President of the United States. Now, in this case obviously 
nothing happened, but we were lucky. What if we are not so 
lucky next time? That is how serious this is.
    I want to ask you a couple of questions. Were you invited 
to the White House to the State Dinner?
    Mr. Salahi. On the advice of counsel I respectfully assert 
my right to remain silent and decline to answer your question.
    Mr. McCaul. Did you submit date of birth and Social 
Security numbers in advance to your attending the White House 
dinner?
    Mr. Salahi. On the advice of counsel I respectfully assert 
my right to remain silent and decline to answer your question.
    Mr. McCaul. Were you waved in by an official from the White 
House to get into this State Dinner?
    Mr. Salahi. On the advice of counsel I respectfully assert 
my right to remain silent and decline to answer your question.
    Mr. McCaul. You have every right to do that, but I will 
echo the sentiments of my colleague from California that this 
is a disgrace to the Secret Service. We are in a time of war. 
You say you support the troops, but they are in harm's way 
protecting us here at home, and we are going to continue to 
investigate this matter.
    With that, I yield back.
    Chairman Thompson. Thank you. The Chair now recognizes the 
gentleman from Pennsylvania for 5 minutes, Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman. This has become a real 
distracting sideshow in the history of this country. I suppose 
it is what happens when we need to pay closer attention to 
things and not focus so much on the egomaniacal among us, and 
that is what is going on now.
    I think there are three sides to this story. Mr. Sullivan 
came and very admirably addressed his side. This is another 
side with no answers, and we are not going to get any answers 
obviously. But I agree, I agree with Mr. King and my Republican 
colleagues that I think Desiree Rogers or someone from the 
White House needs to come and tell the third side of the story. 
In so doing, then we can truly begin to understand what 
happened and to protect the President. I want to extend my 
invitation as the Chairman of the Oversight Subcommittee to the 
White House to come and have a chat with us. I think that that 
makes a lot of sense.
    Now, as far as the Salahis go, time is the only thing 
really that we have of value here, and I can't believe how much 
you are wasting of ours and the taxpayers' dollars right now. 
It is incredible. You know I am not going to ask a question 
because you are not going to give me an answer anyway. But if 
you truly are patriotic, if you truly are Americans, if you 
truly love this country, think about your actions. That is all 
I will tell you.
    I yield back.
    Chairman Thompson. Thank you. The Chair now recognizes the 
gentleman from Texas again, or do you want to pass on your 
time, Mr. McCaul?
    Mr. McCaul. Yes, Mr. Chairman, I will pass.
    Chairman Thompson. The gentleman from Pennsylvania, Mr. 
Dent, for 5 minutes.
    Mr. Dent. I said most of what I wanted to say, Mr. 
Chairman, but I am just going to be really brief. You know 
there are very real threats to this Nation, and we are 
expending an extraordinary amount of resources to mitigate 
those threats. We know about the Christmas Day attack and there 
are other attempts that have occurred in this country that we 
are all too familiar with. The fact that we are expending so 
much of our time and our valuable resources dealing with this 
shameful stunt I think is truly unfortunate. I do want to 
restate one thing. Again, Director Sullivan, it just still 
pains me to see him sitting here accepting responsibility for 
all of this, and that there are a lot of very good people in 
the Secret Service, and a mistake was made. The fact that their 
reputations may be besmirched because of this event I think is 
particularly troubling, career people trying to do their best 
to keep this Nation safe, and here we are today to deal with 
this issue in this manner.
    So I have no questions, Mr. Chairman, because obviously it 
would be a fruitless effort to ask any questions. We will not 
get any responses. But I too want to restate what Mr. King has 
said, that we ought to have the White House Social Office here 
to explain their role in this situation. We need to know what 
they did and why they did what they did and again, to perhaps 
take some of the heat off the Secret Service and Director 
Sullivan, who so admirably stood up here and accepted 
responsibility for the entire event.
    So with that, I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentlelady from California, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman. We haven't heard 
anything from Mrs. Salahi, so my questions will be directed to 
you. Have you ever attended an event at the White House?
    Mrs. Salahi. On advice of counsel I respectfully assert my 
right to remain silent and decline to answer your question.
    Ms. Richardson. Were you advised of the process to attend 
an event at the White House, one of which is needing an 
approval to attend?
    Mrs. Salahi. On advice of counsel I respectfully assert my 
right to remain silent and decline to answer your question.
    Ms. Richardson. Did you receive the information confirming 
your approval to attend the event and, if so, from whom?
    Mrs. Salahi. On advice of counsel I respectfully assert my 
right to remain silent and decline to answer your question.
    Ms. Richardson. Have you not reserved your right and spoken 
to any media outlets about your attendance at the White House?
    Mrs. Salahi. On advice of counsel I respectfully assert my 
right to remain silent and decline to answer your question.
    Ms. Richardson. When you were advised at the gate that your 
name was not on the list, why did you continue to attempt to 
enter when you knew you did not have final confirmation?
    Mrs. Salahi. On advice of counsel I respectfully assert my 
right to remain silent and decline to answer your question.
    Ms. Richardson. Finally, when the criminal process is 
evaluated and concluded, will you return to this committee and 
testify and tell us exactly how you entered the White House?
    Mrs. Salahi. Yes.
    Ms. Richardson. Thank you very much.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes Mr. Olson for 5 minutes.
    Mr. Olson. Thank you very much, Mr. Chairman. I will be 
very brief. I don't want to--I won't ask any questions because 
obviously we know what the answer is going to be. But I want to 
follow up on some of the points my colleagues made.
    I just want to tell you and make sure you realize what an 
incredible breach of security and what an incredible position 
you put our country in by crashing that State Dinner. 
Terrorists are out there and they are trying to hurt us. We saw 
that on Christmas Day. They are watching. They are looking. 
They are looking for vulnerabilities in our security system, 
and you presented them with a textbook of how to get access to 
the President, the Vice President, the foreign minister, the 
Prime Minister of India. Again I can't tell you how much you 
have hurt our country and what you have done to expose us to 
the dangers again that we are facing from the terrorists. They 
are still out there. We saw that in my home State at Fort Hood, 
we saw that on Christmas Day. Again by your actions you have 
given a roadmap and shown them here are some vulnerabilities 
that possibly you can exploit and do incredible damage to our 
country.
    That is all I have to say about this incident, Mr. 
Chairman. Thank you very much.
    Chairman Thompson. Thank you. The Chair now recognizes the 
gentleman from New Jersey, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman. I want to break 
through the protocol here and the niceties and get at the basic 
issue if I may. Who would have thought that two normal-looking 
people, take a look at them today, dressed to the T, these 
beautiful people would have broken through in some manner, 
shape, or form to be alongside the President of the United 
States?
    I want to mention, Mr. Chairman, to all the proponents of 
racial and ethnic profiling that this case involving these two 
individuals, the Salahis, just goes to show that while you are 
looking for a certain kind of person fitting a certain profile 
you are going to miss the real targets. Behavioral profiling is 
in order, and these two people are living proof. So I don't 
respect your right to take the Fifth Amendment, not at all. 
Because it didn't have to be the President of the United 
States, it could have been somebody else. It could have been 
someone not as important as the President of the United States. 
You broke protocol.
    Let me ask you a question, Mr. Salahi. Did you wear a 
tuxedo that that night? Are you going to take the Fifth on 
that?
    Mr. Salahi. On the advice of counsel I respectfully assert 
my right to----
    Mr. Pascrell. Let me ask you a question. Were you there?
    Mr. Salahi. On the advice of counsel----
    Mr. Pascrell. Are you here today, Mr. Salahi? Are you here 
right now?
    You got to get an answer from your attorney on that? Your 
attorney bobbed his head up and down when my good friend from 
Pennsylvania was discussing the possibilities that someone from 
the White House should be here also testifying. He was going 
like this and this. You can do it all you want. You are not 
going to take the heat off your clients. No one is going to 
take the fall for them. So there may have been something wrong 
going on and maybe the White House made a mistake, but they are 
not here.
    [Outburst from audience.]
    Mr. Pascrell. No, I don't want any comment. I plead the 
Fifth on your question.
    Chairman Thompson. Mr. Pascrell.
    Mr. Pascrell. I will continue. Mr. or Mrs. Salahi, I 
believe the entire committee does--we could move on from the 
frivolous fake celebrity nature of this issue and concentrate 
on the security breach itself which every American should 
rightfully be concerned about. Because if you were two folks 
sitting here from Paterson, New Jersey, long-robed with those 
hats on top of your head I wonder if you would have gotten 
through as you swooshed through in front of the camera. Your 
presence is required specifically so you could answer the 
events of that night--to the events of that night. This 
committee gave you every opportunity to speak behind closed 
doors, did it not, Mr. Salahi? Did it not?
    Mr. Salahi. You did, but you didn't afford us any legal 
protection. You wanted us to speak versus our attorneys.
    Mr. Pascrell. So we did give you that opportunity?
    Mr. Salahi. Without any legal protection.
    Mr. Pascrell. Yet you continue to evade every opportunity 
to present your side of the story. The fact that you now appear 
here and are unwilling to speak to any details, and I associate 
myself with the words of Mr. Lungren, who put it very plainly 
and simple and to the point, the fact of the matter is that you 
used the Secret Service to say so many nice things about them 
and what you have done is defied the will of authority. This 
whole episode has been a stunt and a charade upon your part to 
gain attention and notoriety so desperately you seek 
apparently. I want to turn my attention away from you because I 
don't believe that you have anything to offer this committee, 
and it is my hope that they will be prosecuted to the fullest 
extent of the law.
    The issue we should be concentrating on is the failures of 
insecurity. We do not know--we now know that there was at least 
one other uninvited guest who made it into the White House that 
night. There was another person. A fact that was never 
disclosed by the Secret Service during our first hearing. That 
individual was Carlos Allen.
    Chairman Thompson. The gentleman's time has expired. For 
the record, Mr. Pascrell, let me indicate that we have sent a 
request to Director Sullivan to provide us any information 
about the third person and we anticipate receiving that 
information very shortly. So once we get it we will share it 
with the Members of the committee.
    Somehow we are having technical problems. The Chair now 
recognizes Mr. Austria for 5 minutes.
    Mr. Austria. Thank you, Mr. Chairman. Let me just say I 
will keep my remarks very brief as well because I concur with 
what much has been said within this committee. I think this has 
been a big distraction of this Homeland Security Committee as 
we try to focus on homeland security issues that are important 
to this Nation.
    Let me just also reemphasize what has been said on this 
side of the aisle. While the U.S. Secret Service has the 
responsibility to vet and physically screen authorized 
individuals, its officers have no role in determining whether 
someone has been inappropriately excluded from or included on 
that guest list. I think if we really want to get to the bottom 
of what has been raised of questions we really need to get some 
cooperation from the White House. I think the fact that the 
White House Social Secretary, Desiree Rogers, declined her 
invitation to testify to this committee I think leaves that 
question out there unanswered as to how we can correct this 
problem. We need to pursue that, and that issue I don't think 
is going to go away. Obviously with the answers that we are 
getting today from our witnesses being here today I don't think 
we are going to get any additional information.
    So with that, Mr. Chairman, I don't know if any of our 
Members want to use any of my time, they are welcome to do 
that, I would be glad to yield to them. If not, I will yield 
back the balance of my time, Mr. Chairman.
    Chairman Thompson. Thank you very much. I would like to 
just remind the Members that when Mr. Sullivan was here he 
indicated that his office, the Secret Service, had sole 
responsibility for the vetting and the security of whatever 
names that were provided to them and that the witnesses here, 
their name was not on the list according to Director Sullivan's 
testimony.
    The Chair now recognizes the gentleman from Connecticut, 
Mr. Himes.
    Mr. Himes. Thank you, Mr. Chairman. Mr. and Mrs. Salahi, I 
have been deeply ambivalent about these proceedings. I almost 
voted against the subpoena that brought you here today, and I 
certainly would not have asked a question but for your, I 
think, ill-advised appeal to patriotism. We have now spent 45 
minutes, and I think I speak for my colleagues on both sides, 
that would have been better devoted to thinking about the 
unemployment of this country or the threats that we face around 
the world. But you chose to appeal to patriotism, and so I want 
to talk for a second about the Fifth Amendment right that you 
assert here today which your appeal to patriotism would 
indicate you put some value on.
    You have the absolute right to do so. But let's be very 
clear, you have no obligation to do so. You choose to assert 
your rights under the United States Constitution just as 
Director Sullivan when he sat in that seat made a choice. He 
could have engaged in the age-old celebrated Washington game of 
finger-pointing and the blame game of CYA, but he chose to be a 
man of honor and to take responsibility and to take some 
professional risk to put himself in professional jeopardy. I 
understand what you are doing, and I celebrate your right to do 
it. But let's be very clear about the choice you are making. 
You are making a choice to limit your legal jeopardy, which 
your attorney has rightly advised you to do, but you make a 
choice to take that route rather than to help us understand 
what for all its silliness, for all its absurdity was a very 
real threat to the National security of the United States. You 
could choose not to assert your rights against self-
incrimination or you could choose to. Let us be very clear 
about the choice you are making. You are choosing to legal 
your--you are choosing to limit your legal jeopardy under a 
right that we all celebrate and we all appreciate as opposed to 
assist in the open and fair airing of some things that could 
conceivably save the life of the President of the United 
States.
    So my question has actually nothing to do with the events 
of November 24, and I give you ample time to consult with your 
attorney in answering this question. Given the nature of the 
choice that you are making today, would you not reconsider and 
consider airing the information that you have to assist this 
Nation in the protection of the President of the United States 
rather than asserting your rights under the United States 
Constitution?
    Mr. Salahi. Well, let me be clear, through our counsel we 
are ready to tell you all the details, but through only our 
counsel. But if you want to know the details they are ready to 
tell you, they are ready. But it is not going to come from our 
voice, it is going to come from our counsel, but they are ready 
to tell you.
    Mr. Himes. Mrs. Salahi, would you at this point in time 
reconsider your choice to testify personally or will you 
continue to assert your rights under the Constitution?
    Mrs. Salahi. I will do under the advice of whatever counsel 
suggests for me.
    Mr. Himes. Thank you. I have no further questions. I yield 
back my time.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentleman from Georgia, Mr. Broun.
    Mr. Broun. Mr. Chairman, it is right for us to look into 
this security breach. The protection of the leaders of this 
country is absolutely critical for the security that they must 
have. It is also imperative that this committee look into the 
security over all of this Nation, the Salahis or undocumented 
attendees at a Christmas party--or a State Dinner. That is a 
tremendous breach of security that personally I believe the 
process was put in place by the White House and Desiree Rogers 
to make an environment where the Salahis could take an 
advantage. They just took advantage of that process that Ms. 
Rogers put in place and the White House put in place. This 
committee voted pretty much on partisan lines to protect Ms. 
Rogers, and I find that detestable. I want to associate myself 
with Mr. King and what he said and Mr. Lungren in what he said. 
But the Salahis just took advantage of an environment that the 
White House themselves in my opinion created. There were 
undocumented attendees. We have a lot of undocumented attendees 
in this country that are also a security risk. We are not 
dealing with illegal aliens in this country. We must because it 
is of vital security interest to this country.
    So I just appeal to my colleagues on the Democratic side. 
Let's stop protecting Ms. Rogers, let's stop protecting these 
illegal aliens in this country, let's be serious about National 
security and go forward in a manner that not only will protect 
the President and all the leaders of this country but will 
protect this Nation against attacks. Not just attacks by going 
to a State Dinner, which is a security breach and a very 
egregious one, but we have many, many security breaches at our 
borders every day that we must look into, we must attend to, 
because the security of our Nation depends upon it.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you. The Chair recognizes Mr. 
Cleaver for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman. I simply would like 
to associate myself with the earlier comments of the gentleman 
from New Jersey, Mr. Pascrell, with regard to racial and ethnic 
profiling, and I have no questions of these great Americans.
    Chairman Thompson. Thank you. The Chair now recognizes the 
gentleman from California, Mr. Lungren.
    Mr. Lungren. No questions.
    Chairman Thompson. Thank you. The Chair recognizes Ms. 
Titus for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman. I understand that the 
Salahis were out in my district this past week as celebrity 
hosts at the PURE Nightclub at Caesar's Palace. While you were 
there having fun, I hope, we like for a lot of people to come 
to Las Vegas, you were asked by the press what really happened 
and you responded dig deeper. Yet while this committee is 
trying to dig deeper in the hopes of strengthening our 
security, you have chosen not to assist us. I think that is 
very unfortunate. You have a real opportunity to help us with 
important oversight of our Secret Service and our ability to 
secure our homeland and yet you have chosen not to. Your 
audacious activities have exposed a real flaw in the security 
systems of this country, and I wish your legal counsel had said 
yes, let's try to help fix these problems and make it better.
    So I will make one more attempt, even though apparently you 
are not going to answer. I would just ask you are you at all 
concerned that your actions might inspire other people, either 
friendly or celebrity-seekers or terrorists, to try and crash 
other White House events?
    Mr. Salahi. On the advice of counsel I respectfully assert 
my right to remain silent and decline to answer your question.
    Ms. Titus. Well, then I will try one more. Did you have a 
good time in Las Vegas and did you notice at the PURE people 
had to stand in line and pay to get in and they don't allow 
party crashers there?
    Mr. Salahi. Pursuant to Section 1 of your own subpoena, I 
am only compelled to respond to questions reflecting the 
circumstances surrounding the White House State Dinner on 
November 24. Based on the fact that the question doesn't have 
to do with the circumstances surrounding these events, I 
respectfully deadline to answer your question.
    Ms. Titus. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes the gentleman from Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I won't ask any 
questions because we are not going to get any answers. But I 
would like to associate myself with the comments made by 
Ranking Member King and Subcommittee Chairman Carney about the 
need to invite the White House to testify about this serious 
security breach, and I yield back the balance of my time.
    Chairman Thompson. Thank you very much. The Chair now 
recognizes Mrs. Kirkpatrick for 5 minutes.
    Mrs. Kirkpatrick. Mr. and Mrs. Salahi, I am disappointed 
that you did not appear before us when you were invited 
December 3. The importance of that hearing was for us to 
understand what happened so that we could quickly act to 
correct that to protect our President. Appearing today almost 2 
months after the incident is just not acceptable.
    As we saw on Christmas Day, we have a very real threat to 
our citizens, to this Nation, to our President, and it is a 
responsibility of each one of us as a citizen to be vigilant 
and to report any breaches that we see in our security system 
that could cause people to come in harm's way.
    As a former prosecutor I respect your right to assert your 
Fifth Amendment rights. I do have questions that I hope--I wish 
could have been answered today, but I will submit them to the 
committee for the record.
    Thank you.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentlelady from Michigan, Mrs. Miller, for 5 
minutes.
    Mrs. Miller. Thank you very much, Mr. Chairman. I was 
listening to my esteemed colleague from New Jersey, Mr. 
Pascrell, when he said look at these beautiful people. They may 
be beautiful on the outside, but as we all went through the 
Martin Luther King Day here recently I remember, not to 
paraphrase, but when he said people will be judged by the 
context of their character, and that is the way that the 
Salahis I think will be judged in what they are doing here 
today.
    Mr. Chairman, I have the great honor and privilege to 
represent a district in southeast Michigan, arguably the 
epicenter, ground zero, of the economic challenges facing our 
Nation. We have about 15, in the 15th percentile right now of 
unemployment in our State. On top of all of the heartbreak that 
is happening in the Great Lakes State, my beautiful, beautiful 
State, then on Christmas Day we had this terrorist attempt over 
the skies of Detroit where the terrorists now see the 
battleground in an asymmetrical way. On that day the 
battleground was in seat 19A of that Northwest flight over the 
skies of Detroit. I knew people that were on that flight, and 
certainly if that flight would have exploded over my area there 
I would have spent my time going to an awful lot of funerals, I 
am sure.
    So it is almost surreal for me to be sitting here today 
looking at people who wanted to get on some TV show, called the 
Desperate Housewives of Washington, DC or something, in the 
light of the kinds of challenges that we face and that I wish 
this Congress was taking up. With that, Mr. Chairman, I would 
like to yield the balance of my time to Mr. Souder.
    Mr. Souder. I thank my friend from Michigan. Part of my 
concern with this process--and we have held hearings while I 
have been in Congress over in Government Reform and Oversight 
where people have taken the Fifth--is that we usually don't 
isolate one individual or two individuals in the course of a 
case when there is an on-going case. We either get them up 
together and let them do it together, or we would have done at 
the first hearing, or would have waited until we had some more 
information. My understanding is there is a third person. The 
Chairman referred to that third person.
    But my question is where is Bravo? Where is the company 
that did the contract that apparently may have filmed them 
getting their hair done, getting their clothes ready and been a 
cooperative part of this process? We have talked to NBC. Why 
isn't NBC here today with any video that they have? Why aren't 
other individuals who may have been implicated in this--whether 
they take the Fifth or not, and some of them probably wouldn't 
get Fifth Amendment protection. Why are we just having one 
couple that clearly is the firestorm center, clearly put our 
Nation and everything we have heard today potentially at risk 
by exposing things, by showing weaknesses, and behaved 
unpatriotically and in spite of themselves? I don't disagree 
with that, but the question is why, if we are after truth, why 
didn't we do this all together and are we not only having the 
third person, is Bravo coming, and is NBC coming and do we have 
other potential witnesses as well?
    If this was filmed in advance and it was cooperative in the 
media to do a scam on the United States Government, we need to 
do more than just pick two individuals who were participants. 
Mr. Chairman, are we going after any of them, subpoenaing them, 
having an additional hearing with any of them?
    Chairman Thompson. Will the gentleman yield?
    Mr. Souder. I yield.
    Chairman Thompson. Just for the record, Majority and 
Minority staff have already met with Bravo, NBC, all those. 
Everyone has indicated that they would be perfectly willing to 
provide us any and all tapes, copies of documents relative to 
this investigation.
    Mr. Souder. Are we planning to show the tape or any of 
that, or have a discussion with other Members? Because this has 
been interesting, them taking the Fifth and showing the other 
individuals that they don't want to share. But obviously we 
have information that would be of interest to the public as 
much or more than taking the Fifth. Are we going to do this in 
public or----
    Chairman Thompson. Well, I think the question is relative 
to the two witnesses here today, they are the persons who 
perpetrated the breach. The other individuals, NBC, Bravo, 
others, have provided tapes and other information. We will be 
more than happy from a committee perspective to make the 
request that they provide it, and any Member of the committee, 
at their leisure or whatever, can review those tapes.
    Mr. Souder. Okay. Reclaiming my time. I don't mind them 
being embarrassed, even though I have concerns about the 
hearing. The question is that many of the questions that were 
asked today apparently we already know. If we have the tape of 
what they looked like, where they went by, what they showed, it 
seems to me it would have been relevant today to share some of 
that information in this hearing, since apparently Members were 
asking questions that we may already have information about.
    Chairman Thompson. You misunderstood me. We don't have the 
tapes. They have been offered. Minority and Majority staff have 
met with all those studios and they have offered them. I will 
be more than happy to request them. As you know, the Salahis 
have been very up-front in their interviews on the different 
networks, and so it is no secret what has been said.
    Mr. Souder. Mr. Chairman, may I ask you a question?
    Chairman Thompson. Sure.
    Mr. Souder. Why, if they offered the tapes, and some of the 
answers to questions we were asking today are on the tape, why 
didn't we look at the tape before we asked them? I am baffled 
right now. In other words, some of the questions, you know, how 
did you get by, what did you show and so on, those are 
presumably on the tapes. Why wouldn't we have asked to look at 
the tapes before we did the hearing?
    Chairman Thompson. The information and questions we asked 
are not on the tape, so clearly we will have to have the 
witnesses for that.
    Ms. Jackson Lee. Mr. Chairman, would you yield?
    Chairman Thompson. The gentleman's time has expired. Ms. 
Kilroy for 5 minutes.
    Ms. Kilroy. Thank you, Mr. Chairman. I share many of the 
sentiments that my colleagues on both sides of the aisle have 
stated here this morning with respect to these witnesses. But I 
would like to ask these witnesses a few questions, despite 
their apparent unwillingness to cooperate with this body: Mr. 
and Mrs. Salahi, did you have a public relations agent with 
respect to any reality or unscripted TV show that you have been 
involved with in any way?
    Mr. Salahi. Ma'am, pursuant to section 1 of your own 
subpoena, I am only compelled to respond to questions 
reflecting the circumstances surrounding the White House State 
Dinner on November 24. Based on the fact that the question is 
not relevant to the circumstances surrounding those events, I 
respectfully decline to answer your question.
    Ms. Kilroy. Did you have a public relations agent with 
respect to any of the actions regarding the preparation, your 
attendance, your attempt to get a ticket to the November 24, 
2009 State Dinner?
    Mr. Salahi. On advice of counsel I respectfully assert my 
right to remain silent and decline to answer your question.
    Ms. Kilroy. You think that having a public relations agent 
requires you to invoke the Fifth Amendment against self-
incrimination?
    Mr. Salahi. On advice of counsel I respectfully assert my 
right to remain silent and decline to answer your question.
    Ms. Kilroy. Did you have a talent agent with respect to 
your attempt to get a ticket and your appearance at the State 
Dinner?
    Mr. Salahi. On the advice of counsel I respectfully assert 
my right to remain silent and decline to answer your question.
    Ms. Kilroy. Has anyone other than yourselves paid for your 
make-up or your clothes that you wore to the State Dinner on 
November 24, 2009?
    Mr. Salahi. On advice of counsel I respectfully assert my 
right to remain silent and decline to answer your question.
    Ms. Kilroy. Again, you are saying that it would be self-
incriminatory for you to answer the question with respect to 
who paid for the glamorous clothes that you wore to the State 
Dinner?
    Mr. Salahi. On advice of counsel I respectfully assert my 
right to remain silent and decline to answer your question.
    Ms. Kilroy. Were your preparations for attendance at the 
State Dinner taped by any media body, television show--Bravo, 
NBC, or others?
    Mr. Salahi. On advice of counsel I respectfully assert my 
right to remain silent and decline to answer your question.
    Ms. Kilroy. Were you paid by anyone for your activities on 
November 24?
    Mr. Salahi. On advice of counsel I respectfully assert my 
right to remain silent and decline to answer your question.
    Ms. Kilroy. Was your attendance at the State Dinner a 
planned attempt by yourselves to garner yourselves notoriety 
with respect to the Housewives of Washington, DC reality show?
    Mr. Salahi. On the advice of counsel I respectfully assert 
my right to remain silent and decline to answer your question.
    Ms. Kilroy. Do you feel any regret for any of the actions 
you took related to the White House State Dinner and the 
resulting problems it has caused the White House and others?
    Mr. Salahi. Under advice of counsel I respectfully assert 
my right to remain silent and decline to answer your question.
    Ms. Kilroy. I would imply from your actions today that you 
don't feel any regret for any of the problems that you have 
caused. That is what I would surmise from that. If your intent 
was simply to attend the White House State Dinner at the 
invitation of someone at the Pentagon or other agency of the 
United States Government--and that you claim this is a 
misunderstanding or a miscommunication--are you willing to 
forego any financial gain that may arise due to this incident, 
including paid appearances, books, article fees, or television 
opportunities such as any reality TV shows?
    Mr. Salahi. Ma'am, pursuant to section 1 of your own 
subpoena, I am only compelled to respond to questions 
reflecting the circumstances surrounding the White House State 
Dinner of November 24, 2009. Based on the fact the question has 
nothing to do with the circumstances surrounding these events, 
I respectfully decline to answer your question.
    Ms. Kilroy. Mr. Chairman, I think these witnesses have a 
right to invoke the Fifth Amendment against self-incrimination 
when it relates to criminal activity or something that would 
incriminate them in a criminal proceeding. I also think that 
they may be offering the Fifth Amendment to questions that do 
not so involve such jeopardy, and I ask that we consider what 
response we should have to these witnesses. Thank you, Mr. 
Chairman.
    Chairman Thompson. Thank you very much. I thank the 
witnesses for their testimony and the Members for their 
questions.
    Before being dismissed, I would remind the witnesses that 
the Members of the committee may have additional questions for 
you, and we will ask you to respond expeditiously in writing to 
those questions.
    Just for the committee Members, as you know, we have 
another item to take up as soon as the hearing is adjourned.
    This concludes Day 2 of this hearing. Hearing no further 
business, the committee is adjourned.
    [Whereupon, at 11:13 a.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
